Semiannual Report
 to the Congress
April 1, 1995 - September 30, 1995




    U.S. General Services Administration
         Office of Inspector General
          Foreword

This report, submitted pursuant to the Inspector General Act of 1978,
as amended, summarizes the activities of the Office of Inspector
General (OIG) for the 6-month reporting period that ended
September 3D, 1995. It is the thirtyjourth report to the Congress since
the appointment of the Agency'sjirst Inspector General.

This has been a dynamic and challenging periodfor the OIG and the
 General Services Administration (GSA) as a whole. I have been
 extremely proud of the dedication and professionalism that our staff
 has exhibited again and again throughout the year. Times are difficult
for individuals in Government; there is unprecedented change, great
 uncertainty about the future, and a very visible decline in bothjinancial
 and human resources, all matters which can be distracting and
 disturbing. Setting aside personal concerns, the stafffocused on
 meeting our mission. They took on new roles, found more E;[tlcient ways
 to do old things, and committed themselves to assisting the Agency
 redefine itself.

In the pages whichfollow, this report details the staffs
accomplishments and clearly demonstrates what can be achieved
when individuals work togetherfor a common purpose. This has not
been an easy time and the obstacles were many. Financial reductions
have had their effect. Work plans and priorities had to be adjusted,
reordered, or postponed. Personnel losses often occurred at
geographical locations where staff was most needed and the absence
of relocation funds precluded transfer oj personnel to rightsize
operational units. While these elements have hampered our progress,
our people have stretched to keep moving forward.

We understandfully that thefuture, while offering us opportunity and
challenge, is also going to present us with the task of doing even more
with less. This prospect is of great concern. Nevertheless, we pledge to
do our best to manage this transition in a manner which maintains our
high level oJ commitment tofulfllling the ~IG's mission.

I want to take this opportunity to thank the GSA Administrator and
Members oJ Congress for their support. I also want to commend the GIG
employees for their contributions to our achievements during the past
6 months and their continued dedication in unsettled but challenging
times.


~£4~
William R. Barton
Inspector General

October 31, 1995
  Table of Contents

                                                                                              Page

Summary of OIG Perfonnance ........................................................ v

Fiscal Year 1995 Results ............................................................... vi

Executive Summary ......................................................................vii

OIG Profile ..................................................................................... 1

Procurement Activities ................................................................... 2

Reviews of GSA Programs ... .'........................................................... 9

Prevention Activities ..................................................................... 25

Review of Legislation and Regulations .......................................... 27

Statistical Summary of OIG Accomplishments .............................. 32

Appendices

Appendix I - Significant Audits from Prior Reports ........................ 39

Appendix II - Audit Report Register ............................................... 42

Appendix III - Delinquent Debts ................................................... 63

Appendix N - Reporting Requirements ......................................... 64




                                                               Office of Inspector General iii
               Summary of OIG Performance

                      Total financial recommendations                            $80,363,053
OIG Accomplishments
                      These include:

                        ..   Recommendations that funds be put
                             to better use                                       $64,744,664

                        ..   Questioned costs                                    $15,618,389

                      Audit reports issued                                           237

                      Referrals for criminal prosecution,
                      civil litigation, and administrative action                    281

                      Management decisions agreeing with questioned
Results Attained      costs, civil settlements, and court-ordered and
                      investigative recoveries                                   $82,591,057

                      Indictments and informations on criminal referrals
                      and civil complaint referrals                                     9

                      Successful criminal prosecutions                                 18

                      Civil settlements                                                 7

                      Contractors suspended/ debarred                                  99

                      Employee actions taken on administrative referrals
                      involving GSA employees                                          17




                                                                    Office of Inspector General v
                               Fiscal Year 1995 Results

                                     During Fiscal Year 1995, OlG activities resulted in:

                                     ..   Over $176 million in recommendations that funds be put to better
                                          use and in questioned costs. If adopted, these recommendations
                                          ultimately result in savings for the taxpayers.

                                     e    Management decisions to put $200.2 million in funds to better use
                                          based on OIG recommendations.

                                    e     517 audit reports that assisted management in making sound
                                          decisions regarding Agency operations.

                                    ..    15 implementation reviews that tracked the progress of actions in
                                          response to internal audit reports.

                                    ..    $28.9 million recovered as a result of management decisions to
                                          recover funds, civil settlements, court-ordered recoveries, and
                                          investigative recoveries.

                                    ..    313 new investigations opened and 322 cases closed.

                                    ..    33 case referrals (60 subjects) accepted for criminal prosecution
                                          and 15 case referrals (25 subjects) accepted for civil litigation.

                                    ..    19 criminal indictments/informations and 27 successful
                                          prosecutions on criminal matters referred.

                                    ..    17 civil settlements, 1 judgment, and 1 civil complaint.

                                    ..    63 referrals to other Federal agencies for further investigation.

                                    ..    29 employee actions taken on administrative referrals involving
                                          GSA employees.

                                    o     73 contractor suspensions and 75 contractor debarments.

                                    •     512 legislative matters and 76 regulations and directives reviewed.

                                    ..    232 Hotline calls and letters received of which 182 were GSA-
                                          related.




vi   Semiannual Report To The Congress
Executive Summary

The second half of Fiscal Year (Fy) 1995 was a period of rapid and
dramatic action for both GSA and the OIG. Many of the initiatives
launched by GSA and the OIG in the flrst half of the flscal year began
to show results. To spearhead the Agency's self evaluation. the
Administrator and senior management established the Operations
Review Group which uses the Federal Operations Review Model
(FORM) to analyze all 16 of GSA's business lines. We are heavily
involved in working with GSA to ensure that these business lines are
analyzed using the most accurate information available and that the
decisions reached are reasonable.

Auditors have been assigned as business representatives to each
ongoing business line study to serve as advisors and to monitor the
work in process. We have also assigned FORM review teams to assess
completed GSA reviews. One of these teams has completed its assess-
ment of the Commercial Broker analysis and two other FORM teams
are assessing Agency reviews of Real Property Management and Fleet
Management. All three will shortly be issuing reports to GSA on the
results of their assessments. Another team is reviewing the Agency's
methods for allocating General Management and Administrative
expenses.

To date, nearly 25 percent of our auditors have participated in various
aspects of these reviews. We expect that more auditors will continue to
devote much of their time to this endeavor in FY 1996. While we view
involvement in these reviews as a most meaningful use of our
resources, this has caused, and will continue to cause, signiflcant
consumption of our staffs time, especially in the Washington, D.C.
area. While this Significant commitment of resources has decreased
our ability to address other priorities, we believe that the benefits to
the Agency and taxpayers of our participation in the review process far
outweigh other considerations.

Over the past few years our audit program began shifting its focus
from compliance to broad program reviews of GSA operations. These
reviews result in higher quality, more useful reports which evaluate
and recommend ways to improve major GSA activities. This period, we
completed several signiflcant reviews including methods to streamline
the lease acquisition process (see page 15), opportunities to expedite
reimbursable work authorization requests from tenant agencies (see
page 17), new concepts for managing household goods and freight (see
pages 21 and 22), and recommendations for improving the
effectiveness of the Federal construction program (see page 9). At a
time when GSA management is accelerating the reinvention process
and reassessing the role of the Agency, our reviews increasingly are
being used by managers to redefine programs, reshape operations,
and simplifY activities.
The Office of Audits developed its flrst formal Audit Business Plan for
FY 1995. The Plan challenged the staff to cut costs and improve
efficiency so we will be more business-like and better able to compete


                                            Office of Inspector General vii
                                  Executive Summary

                                  with the private sector and other Government audit organizations. The
                                  Plan presented the strategies for change in its operations for FY 1995
                                  and beyond. This document defined the Audit Program in terms of its
                                  current status and where it was going and stressed the need to
                                  provide customers with the types of reviews that improve Agency
                                  operations as well as the need to assess our own operations.

                                  During FY 1995, a number of initiatives commensurate with the goals
                                  established in the Business Plan were started. We concentrated more
                                  resources on internal audits, particularly program reviews. We also
                                  began a continuing in-house training effort to reorient our staff to the
                                  most efficient ways of performing program reviews. By improving audit
                                  processes, we have reduced the length of time to perform contract
                                  audits as well as the number of hours that are charged to these
                                  reviews. In FY 1995, we issued audit reports to contracting officials an
                                  average of 37 days sooner than we have in the past.

                                  The Office of Investigations also issued a new strategic plan for
                                  FY 1995 that established its operational priorities in light of diminish-
                                  ing resources. The plan detailed how the Office of Investigations would
                                  reduce administrative costs, focus more on proactive initiatives, and
                                  reduce the length of time required to complete investigations.

                                  Finally, this was a year of exceptional activity in the area of procure-
                                  ment reform. The OIG has commented extensively on procurement
                                  reform proposals and in connection with the development of
                                  regulations implementing the Federal Acquisition Streamlining Act,
                                  passed by Congress last year. In conjunction with the Department of
                                  Veterans Affairs OIG, we issued a discussion paper outlining our
                                  concerns that recent trends in procurement reform legislation may
                                  remove a number of safeguards from the Multiple Award Schedule
                                  program. These safeguards have helped guarantee that Government
                                  agencies receive the best possible prices when obtaining commonly
                                  used goods and services. The loss of these safeguards could lead to
                                  the Government needlessly paying higher prices, with the taxpayers
                                  ultimately bearing the burden. While we support fully the need to
                                  streamline procurement activities for goods purchased under this
                                  multi-billion dollar program, the paper documented that baSic
                                  protections which are in fact regularly used in the private sector
                                  would be denied the Government under some procurement "reform"
                                  proposals. We urged that these key safeguards be preserved; they
                                  become increasingly vital as the Government relies on commercial
                                  product acquisitions (see page 2).

                                  Our Quality Management program has continued to advance the Total
                                  Quality Process (TQP) within the OIG by counseling individual OIG
                                  components in their TQP activities and fostering a number of
                                  initiatives throughout the OIG. We are also continuing efforts to
                                  streamline our operations, better utilize our staff, and improve our
                                  services.



viii Semiannual Report To The Congress
                                OIG Profile

                      The GSA OIG was established on October I, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG's six
                      components work together to peTjorm the missions mandated by the
                      Congress.

                      The OIG provides nationwide coverage of GSA programs and activities.
Organization          It consists of:

                      •     The Office of Audits, an evaluative unit staffed with auditors and
                            analysts who provide comprehensive audit coverage of GSA
                            operations through program performance reviews, internal
                            controls assessments, and financial and mandated compliance
                            audits. It also conducts external reviews to support GSA
                            contracting officials to ensure fair contract prices and adherence
                            to contract terms and conditions.

                      •     The Office of Investigations, an investigative unit that manages a
                            nationwide program to prevent and detect illegal and/ or improper
                            activities involving GSA programs, operations, and personnel.

                      •     The Office of Counsel to the Inspector General, an in-house
                            legal staff that provides legal advice and assistance to all OIG
                            components, represents the OIG in litigation arising out of or
                            affecting OIG operations, and manages the ~IG's
                            legislative/regulatory review functions.

                      •     These functions are supported by the Office of Administration,
                            the Office of Quality Management, and the Internal Evaluation
                            Staff. These components provide in-house information systems,
                            budgetary, administrative, personnel, and communications
                            services; promote and coordinate the Total Quality Process
                            program; and plan and direct field office appraisals and internal
                            affairs reviews of OIG operations.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA's Central
                      Office building. Field audit and investigations offices are maintained
                      in Boston, New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
                      Worth, San Francisco, and Washington, D.C. Sub-offices are also
                      maintained in Auburn, Cleveland, and Los Angeles.

Staffing and Budget   The OIG started FY 1995 with a total on-board strength of
                      387 employees. As of September 30, 1995, our on-board strength was
                      336 employees. We lost 52 employees and replaced only one due to
                      budget constraints.

                      The   ~IG's   FY 1995 budget was apprOximately $33 million.




                                                                     Office of Inspector General   1
                              Procurement Activities

                                 GSA is responsible for providing space Jor almost 1 million Federal
                                 employees. GSA, thereJore, acquires buildings and sites, constructs
                                 facilities, and leases space as well as contracts for repairs, alterations,
                                 maintenance, and protection oj Govemment-controlled space. GSA also
                                 operates a Govemmentwide service and supply system. To meet the
                                 needs of customer agencies, GSA contracts Jor billions of dollars worth
                                 oj equipment, supplies, materials, and services each year. We review
                                 these procurements on both a preaward and postaward basis to ensure
                                 that the taxpayers' interests are protected. We perform approximately
                                 400 reviews each year.


Significant OIG                  Procurement Reform and the Multiple Award Schedule
Accomplishments                  Program
                                 Under the Multiple Award Schedule (MAS) program, agencies
                                 purchase over $9 billion worth of commercial items annually.
                                 Administered by GSA and the Department of Veterans Affairs (VA), the
                                 MAS program prOvides Federal agencies with a simplified proccdure
                                 for acquiring commonly used supplies and services at prices generally
                                 reflecting the discounts to which the Government should be entitled,
                                 given its large volume of purchases. The MAS program has been
                                 repeatedly recognized by industry as well as Federal and State
                                 agencies as an effective and economical mode of procurement, which
                                 conSistently produces significant savings for the taxpayers.

                                 The GSA and VA OIGs issued a discussion paper outlining our
                                 concerns that recent procurement refonn legislation may go too far
                                 and may remove from the MAS program a number of safeguards that
                                 help ensure that when the Government buys commercial products, it
                                 does so in a manner that provides a fair process and guarantees that
                                 the Government gets a fair deal. A primary focus of the ongoing
                                 process of refonn has been on efforts to make the Federal Government
                                 operate more like the private sector in the acquisition area,
                                 particularly in the procurement of commercial products.

                                 The paper highlights key safeguards such as data disclosure
                                 requirements, certifications, price reduction requirements, and audit
                                 rights which were built into the MAS procurement process in response
                                 to General Accounting Office recommendations and evidence of
                                 contractor abuses. Industry proposals to curtail or eliminate these
                                 safeguards have been incorporated or discussed in the context of
                                 recent procurement initiatives. The success of industry in gaining
                                 support for many of these procurement initiatives reflects the popular
                                 misconception that the Government operates in ways Significantly
                                 different than the ways in which industry operates.

                                 When industry representatives have testified before Congress about
                                 the so-called burdens of the Federal procurement process, they have
                                 spoken from the perspective of sellers of goods; however, they have not



2 Semiannual Report To The Congress
Procurement Activities

 addressed how they acquire commercial goods when they act as
 purchasers. While industry strenuously argues that these safeguards
 are incompatible with commercial sales practices, our own
 documented experience is that large private sector purchasers
 consistently require the same types of safeguards in their own
 contracts as does the Federal Government. In the paper, we examined
 the terms and conditions contained in a sampling of agreements
 between large volume purchasers in the private sector and their
 commercial suppliers and found that all the agreements contained, at
 a minimum, most-favored customer requirements, price reduction
 clauses, or audit rights.

 Disclosure requirements are the prinCipal means by which GSA and
 the VA ensure that the prices they negotiate are fair and reasonable.
 The paper discussed proposed legislation, which would on a 4-year
 pilot program basis, eliminate price negotiations and disclosure
 requirements for computer schedule products and substitute, instead,
 price competition on an electronic medium. The paper expressed our
 concern that, for a variety of reasons, including the lack of
 competition on certain schedules, such an automated mechanism
 could not effectively substitute for disclosure requirements and price
 negotiations to ensure the Government receives reasonable current
 prices.

 We believe that, without certifications, the quality of information
 disclosures would drop dramatically and inevitably lead to over-
 pricing. At the same time, the Government would be left without
 appropriate remedies for recovering taxpayer monies lost due to
 contractor fraud. The proposed Federal Acquisition Reform Act of
 1995 would eliminate certain statutory certifications. The Government
 requires certifications in many different contexts, ranging from
 certifications supporting procurement integrity to those accompanying
 the reporting of lobbying efforts. Certifications have proven necessary
 to ensure that contractors accurately disclose pricing and discount
 information, as well as terms and conditions offered to the Govern-
 ment and other customers, so that contracting officers can make price
 reasonableness determinations based on reliable information.

 Price reduction clauses provide that if a contractor sells to an
 identified comparable customer any item covered by the contract at a
 price below the negotiated MAS contract price, then the contractor
 must give the Government an equivalent price reduction on all
 subsequent Government orders for the balance of the contract period
 or until the price is further reduced. Industry continues to oppose the
 Government's use of price reduction clauses, on any basis, arguing
 that clauses are unnecessary and not in accordance with standard
 commercial practice. However, our review found that price reduction
 requirements are standard commercial practice for many large volume
 purchasers. Most importantly, the price reduction clause ensures
 that, in the context of the typical 3- to 5-year MAS contract, the


                                              Office of Inspector General 3
                                Procurement Activities

                                   Government maintains the price position and advantage it negotiated
                                   relative to a contractor's commercial customer.

                                   Audit rights are one of the most important tools the Government has
                                   to detect and recover contractor overpricing. Removing or curtailing
                                   audit rights, as has been discussed in the context of current
                                   procurement reform efforts, would render meaningless any ability the
                                   Government may still have to monitor defective pricing or price
                                   reduction requirements or even to discover and recover for simple
                                   billing errors. In the past 7 years alone, the GSA OIG issued
                                   postaward audits of MAS contracts which resulted in the recovery of
                                   over $100 million in civil fraud settlements and judgments with
                                   contractors, largely due to inaccurate and incomplete disclosures of
                                   discount information and price reductions by contractors. (Examples
                                   of such cases from the current reporting period are described in the
                                   section immediately following. See also page 25.) During the same
                                   period, GSA OIG audits have also generated hundreds of millions of
                                   dollars from both administrative recoveries of defective pricing and
                                   price reduction claims and cost savings achieved by contracting
                                   officers during the negotiation of MAS contracts.

                                   Finally, the July 1995 paper made the follOwing recommendations:

                                   •    Develop a clear statement that the Government shall have audit
                                        access rights for a period up to 3 years after final contract
                                        payment in all negotiated procurements.

                                   •    Retain, at a minimum, all certifications relating to pricing or
                                        related information disclosures presently required on
                                        acquisitions, including MAS acquisitions, exempt from Truth in
                                        Negotiations Act cost or pricing data requirements.

                                   •    Include in all MAS contracts a statement recognizing that the
                                        price reduction clause is commonly included in private sector
                                        commercial contracts.

                                   •    Include a requirement for price review and adjustment after a
                                        reasonable period for commercial item contracts for cutting-edge
                                        technologies which do not yet have actual sales data available.

                                   •    Establish clear limitations on the scope and duration of the
                                        proposed MAS "pilot" automation program, including maximum
                                        dollar amounts.

                                   Over $2 Million in Civil Settlements
                                   This period, the Government entered into seven settlement
                                   agreements in which companies agreed to pay over $2 million to
                                   resolve their potential civil liability under the False Claims Act. These
                                   agreements, negotiated by representatives of the Department of


4   Semiannual Report To The Congress
Procurement Activities

 Justice and the GSA OIG, reflect the ongoing efforts of the OIG to
 pursue cases involving procurement fraud and practices which
 threaten the integrity of the Government's procurement process.

 Most of these cases involved procurements under GSA's Multiple
 Award Schedule (MAS) program. Under this program, GSA negotiates
 contracts with a number of vendors who may then sell covered
 products to Federal agencies at established contract prices. Consist-
 ent with the provisions of the Truth in Negotiations Act and the
 Competition in Contracting Act, the process is based on the principles
 oHull and open disclosure and fair negotiations. Vendors must
 provide current, accurate, and complete pricing information-including
 information about discounts granted to commercial customers-during
 contract negotiations. Relying on this informatiotl, GSA contracting
 personnel may then seek to obtain the best possible prices for the
 Government. In cases where vendors fail to provide current, accurate,
 or complete information, the Government may pay artifiCially inflated
 prices for the products and services it purchases. Highlights of
 selected cases follow.

 '"   A manufacturer of systems furniture paid $800,000 to settle the
      Government's claims that it violated the False Claims Act by
      failing to negotiate truthfully with GSA contracting officials. The
      settlement is notable because it is the first OIG-related agreement
      reached through use of a formal Alternate Dispute Resolution
      process .

 .,   A supplier of small hand tools has been ordered to pay $365,000
      for violating the False Claims Act by failing to provide the items
      required by the contract. An OIG investigation disclosed that the
      company bought tools from a legitimate manufacturer, altered
      them in an attempt to meet contract specifications, and sold the
      tools to the Government. A U.S. District Court found that the
      supplier prOVided Federal customers with inadequate imitations
      of the agreed-upon tools .

 .,   A former supplier of electronic storage media agreed to pay
      $350,000 to resolve its potential False Claims Act liability for
      failing to accurately report its end-user pricing to GSA contract
      negotiators. The agreement settled Government claims that the
      failure to accurately report pricing led Federal customers to pay
      more than was fair for the company's products.

 '"   A computer equipment and software supplier agreed to pay
      $330,000 to settle its potential civil liability. The agreement
      resulted from an audit and investigation which showed the
      company had failed to accurately provide current, accurate, and
      complete information to GSA in the course of a MAS contract.




                                               Office of Inspector General 5
                                    ocurement Activities

                                   ..   Two owners of an industrial kitchen supply company paid a total
                                        of $300,000 to settle the Government's claims that they
                                        overcharged Federal customers who purchased their products
                                        through the MAS program. One ofthe owners paid $200,000 to
                                        settle his potential False Claims Act liability. The other agreed to
                                        pay $100,000 to repay the Government for the money he received
                                        as a result of the scheme. In our previous Semiannual Report to
                                        the Congress, we noted that one of these individuals was found
                                        guilty of conspiring with several employees of the company to
                                        overcharge Federal customers (see page 3).

                                   "    A contractor paid $288,239 to settle Government claims that it
                                        violated the False Claims Act by overstating its costs to operate
                                        office space for border patrol operations.

                                   Multiple Award Schedule Pilot Project
                                   As a National Perfonnance Review reinvention project in the field of
                                   procurement, GSA established the Multiple Award Schedule (MAS)
                                   Pilot Project for the acquisition of computer software products. MAS
                                   contracts are master agreements that GSA enters into with vendors of
                                   commercial items. GSA uses the volume purchasing power of the
                                   Government to obtain favorable prices and establishes ordering
                                   agreements which any Federal agency can use to efficiently acquire
                                   commonly used products. The objectives of the Pilot were to lower the
                                   administrative requirements on industry, streamline the evaluation
                                   and award processes for the Government and vendors, and offer
                                   customers a wider range of choice in products, while ensuring that
                                   product pricing remained fair and reasonable. The project consists of
                                   530 contracts valued at approximately $800 million.

                                   An OIG report showed that GSA established the following five expected
                                   outcomes to determine the success of the Pilot: increased customer
                                   satisfaction, increased choice, reduced evaluation times, improved
                                   Industry-Government customer relations, and fair and reasonable
                                   pricing. However, the Agency did not develop performance targets for
                                   any of the outcomes and there are no mechanisms in place to
                                   measure the progress being made toward achieving the desired
                                   results. Until the mechanisms are in place, there is no way to measure
                                   the success of the project or the effect it may have on GSA's customer
                                   agencies' expenditures of nearly $800 million.

                                   We reviewed a sample of contractors' performance to determine
                                   whcther their marketing practices were fully disclosed and the extent
                                   to which order-specific priCing was being used by customer agencies.
                                   Full disclosure enables the contracting officers to negotiate fair and
                                   reasonable prices. Order-specific pricing is a mechanism whereby the
                                   customer agency negotiates a lower price with the vendor for
                                   significant MAS orders. Six of the ten sampled contractors had
                                   significant nondisclosures. Few order-specific pricing transactions


6   Semiannual Report To The Congress
Procurement Activities

 actually took place and when they did, they were often for limited
 quantities.

 Because contractor disclosures continue to be less than complete and
 accurate, and order-specific pricing is not widespread and does not
 always result in the Government receiving pricing comparable to
 commercial customers, we determined that the Pilot has not had a
 positive effect on achieving fair and reasonable prices for the customer
 agencies.

 The OIG issued an interim report on the Pilot Project to highlight our
 concerns that schedule prices for shrink-wrap packages of software
 were not fair and reasonable, and excessive costs would be paid if
 large quantities of these packages were purchased. This interim report
 was discussed more fully in our November 1994 Semiannual Report to
 the Congress (see page 4).

 The May 12, 1995 final report recommended that the Commissioner of
 the Information Technology Service ensure that mechanisms are put
 in place to monitor and measure the progress and accomplishments of
 the Pilot. A responSive action plan was provided for implementing the
 report recommendation.

 Conspiracy Conviction
 On May 1, 1995, a director ofa State civil defense crisis action team
 pled guilty in V.S. District Court to charges of conspiring to defraud
 the Government. On May 31, 1995, he was sentenced to 3 years
 probation and ordered to pay $19,193 in restitution.

 The conviction resulted from an investigation which revealed that the
 director illegally issued temporary passes to a local store owner, which
 allowed the store owner to obtain Federal surplus property from the
 State's department of economic and community affairs. This State
 agency is responsible for surplus Federal property which is donated to
 the State by GSA. The property passes indicated that the Federal
 property was being obtained for the civil defense action team. Instead,
 the local store owner used the passes to obtain property which he
 then sold through his retail establishment, and shared the proceeds
 with the State director. The surplus property obtained through this
 conspiracy was valued at $559,773.

 Federal Official Accepting a Gratuity
 As the result of a four-State joint investigation by the GSA and
 Department of the Interior OIGs, Defense Criminal Investigative
 Service, and the Federal Bureau of Investigation, a former Bureau of
 Indian Affairs (BIA) official was convicted of receiving an illegal
 gratuity. On April 24, 1995, he was sentenced in V.S. District Court to
 10 months in prison and 3 years supervised release.



                                              Office of Inspector General 7
                                Procurement Activities

                                   An investigation was initiated when it was alleged that Government
                                   property was improperly transferred through the GSA Surplus
                                   Property Donation program. Investigators found that the former ElA
                                   official was paid by a tribal chairman to preauthorize blank property
                                   transfer documents authorizing the transfer of U.S. Government
                                   property made available through the program to several tribes. A BIA
                                   certified contract screener working in collusion with the tribal
                                   chairman went to a Department of Defense reutilization marketing
                                   office and completed the pre authorized transfer form, indicating that
                                   the property would be transferred for tribal use. Instead, the tribal
                                   chairman and contract screener diverted the property from the tribes
                                   and sold it for personal profit. During the execution of search
                                   warrants in several States, apprOximately 100 pieces of Government
                                   property worth nearly $10 million were recovered, including a 300-ton
                                   dockside cargo crane, loaders, and other heavy equipment.

                                   Fraud Conviction
                                   Two officials of a protective guard services corporation were convicted
                                   in U.S. District Court for aiding and abetting the submission of false
                                   income tax returns by fraudulently billing GSA and New York City for
                                   services at Federal and city buildings.

                                   The conviction resulted from a joint investigation by the GIG, the
                                   Internal Revenue Service, the Federal Bureau of Investigation, and the
                                   New York City Department of Investigations. The investigation
                                   disclosed a scheme by which the officials submitted billing invoices
                                   containing false information concerning the number of guards and the
                                   number of hours for which protective services were claimed at Federal
                                   and city buildings.

                                   Both officials of the firm agreed to make restitution in the amount of
                                   $458,363, of which $198,471 is due GSA. Sentencing is scheduled for
                                   December 1995.




8   Semiannual Report To The Congress
                  Reviews of GSA Programs

                     GSA is a central management agency that sets Federal policy in such
                     areas as Federal procurement, real property management, and
                     telecommunications, GSA also manages diversified Government
                     operations involving buildings management, supply Jacilities, real and
                     personal property disposals and sales, data processing, and motor
                     vehicle and travel management. In addition, GSA manages
                     143 accounting Junds and provides cross-servicing support Jor client
                     agencies, Our audits examine the efficiency, effectiveness, and integrity
                     oj GSA programs and operations and result in reports to management.
                     Our internal audits program is designed to Jacilitate management's
                     evaluation and improvement oj control systems by identifying areas oj
                     vulnerability and including recommendations Jor improvement. This
                     period, the OIG peiformed 48 internal reviews on Agency program
                     areas.


Significant OIG      Construction Projects
                     GSA plans and executes a design and construction program to expand
Accomplishments      and modernize its inventory of buildings for housing Federal agenCies.
                     New construction projects are undertaken to meet new space requests
                     or to replace leases with more economical Federally owned space.
                     Architectural and engineering studies and other consultation services
                     are performed to support other functional areas within GSA. The
                     program is executed by 11 regional offices through contracting with
                     private sector and construction professionals.

                     The Administrator requested that the OIG review the bidding and
                     contracting practices for GSA's major construction projects because of
                     allegations and concerns from the media, industry, the public, and
                     Congress suggesting that wrongdoing was occurring in the award of
                     contracts. The objectives of the review were to determine if contracts
                     were improperly steered to specific contractors, if procurement
                     practices were inefficient or ineffective, and if GSA acted prudently
                     when acquiring new buildings. To accomplish these objectives, the
                     auditors selected 18 building projects active since 1988, and
                     conducted detailed record reviews and audit testing of key aspects of
                     each project. The projects were chosen either because of their size or
                     because they had received negative CongreSSional or media attention.

                     Our review did not disclose any evidence that construction contracts
                     had been improperly steered to specific contractors. In addition, the
                     OIG's Offke of Investigations examined specific allegations and
                     charges and found no evidence of wrongdoing. We also found no
                     evidence that GSA officials acted improperly when they altered the
                     method of finanCing specific projects after the project bidding
                     deadlines had passed. We believe that GSA's decision to restructure
                     the financing for major projects was rational, prudent, and will save
                     taxpayers over $500 million through lower interest expenditures.




                                                                   Office of Inspector General 9
                          Reviews of GSA Programs

                                 In addition, the report identified several practices involving the
                                 development of requirements, financing, and procurement that need
                                 improvement.

                                 While GSA has a reasonable planning process for construction
                                 projects, in some instances it fell short because GSA's planning simply
                                 could not keep pace with agencies' changing needs. The Congress also
                                 plays a major role in the construction program because it authorizes
                                 funding and may define both the scope and priority given to specific
                                 projects. Congressionally directed changes required GSA to
                                 restructure and redesign several projects at additional costs. We
                                 believe that GSA could have done more to inform the Congress of the
                                 financial consequences when Congressionally directed changes to
                                 approved plans altered the priority or scope of construction projects.

                                 GSA has found better ways to reduce financing expenses on new
                                 construction acquired through lease-purchase, producing significant
                                 savings for taxpayers. However, GSA needs to perform a risk analysis
                                 to determine whether it should use Federal Finance Bank (FFB) funds
                                 to underwrite the development of the projects and provide the long-
                                 term financing, or should require the developer to obtain commercial
                                 financing for the construction phase with GSA using FFB funds only
                                 for the long-term financing of completed projects.

                                 The report noted that when GSA used the source selection process to
                                 select architects and contractors, selection evaluation criteria varied
                                 by project. Without consistency in award factors, we believe GSA is
                                 defining what it means by design excellence differently for each
                                 project. In addition, the makeup, qualifications, rank, number of
                                 panel members, and mix of membership of source selection evaluation
                                 boards differed from project to project. Boards were composed of client
                                 agencies, local governments, and GSA personnel in varying numbers.
                                 In some cases, non-GSA personnel outnumbered GSA members and
                                 some individual members appeared to have a disproportionate
                                 amount of influence on decisions.

                                 The review also disclosed that GSA's objective of customer service and
                                 satisfaction conflicted with its oversight role in the construction
                                 program and may have contributed to increases in project costs. As a
                                 result, we found that on many projects, GSA did not limit the
                                 construction and installation of facilities and finishes that may be
                                 considered extravagant and personal in nature. For example, in one
                                 project over $120 million in change orders were issued for upgraded
                                 interior finishes and improvements. Also, GSA has constructed
                                 buildings that will operate at a loss and will drain money. from the
                                 Federal Buildings Fund. The Agency needs to develop a more
                                 business-like strategy in making investment decisions.

                                 GSA and the Administrative Office of the Courts have recognized the
                                 problem of excessive costs and judicial pressure for special features


10 Semiannual Report To The Congress
Reviews of GSA

   and finishes in the courthouse construction program. In order to
   bring a national perspective to the regional building program, GSA
   has created the Courthouse Management Group to provide a single
   point of responsibility for program efficiency and cost effectiveness. We
   believe this is a positive move to improve the program, but it is too
   newly formed to assess its usefulness.

   In the September 27, 1995 report, we recommended that the
   Commissioner, Public Buildings Service:

   ..   Evaluate the effectiveness of the Courthouse Management Group
        to determine whether the concept has wider application for other
        clients' space needs.

   ..   Develop policy gUidance for a system using cash flow analysis
        and return on investment for all proposed new construction
        projects to see if the project makes good business sense and is a
        wise investment for the Federal Buildings Fund.

   ..   Obtain a legal opinion from the Office of General Counsel on the
        impact of Public Law 10 1-509, Treasury, Postal Service, and
        General Government Appropriations Bill, 1991, on the future
        retention or sale of the GSA buildings affected, and develop a
        policy for the use of funds from a future sale to offset new
        construction costs to ensure that sound planning and prudent
        business judgment go into the decision-making process.

   ..   Develop source selection policy guidance, including standardized
        award factors and specific gUidelines for committee composition.

   ..   Analyze available alternatives before deciding to design/build
        complex special use buildings such as courthouses.

   ..   Assess staff resources and expertise against workload in order to
        best execute the construction program.

   ..   Develop a strategy to control the furnishing of embellishments
        and convenience-type amenities. Establish a policy on what GSA
        will and will not furnish, what will be reimbursable, and what
        GSA's oversight role will be.

   ..   Re-evaluate the method used to establish rent for special purpose
        space to find a means to ensure that the actual cost of
        construction will be recovered.

   The Commissioner agreed with the recommendations in the report.
   The audit is still in the resolution process.




                                               Office of Inspector General   11
                            Reviews of GSA Programs

                                   Background Checks of Child Care Center Employees
                                   GSA has oversight responsibility for child care centers operating in
                                   Federal facilities. Public Law (P.L.) 101-647 requires criminal history
                                   background checks with the Federal Bureau of Investigation (FBI) for
                                   all employees working in Federal child care facilities to ensure that
                                   centers employ only persons without criminal records. When a review
                                   of the background check process at one region uncovered significant
                                   deficiencies, the review was expanded to include a sample of centers in
                                   all GSA regions. By August 1995, we had reviewed centers at 4 of
                                   11 regions.

                                   This ongoing review has revealed that GSA is in substantial
                                   noncompliance with P.L. 101-647. This increases the risk that
                                   unsuitable persons are being entrusted with the physical and
                                   emotional well-being of children in these centers. None of the
                                   employees in 10 of 21 centers reviewed had a completed background
                                   check. Although some employees had received State issued clearances
                                   for child care employment, P.L. 101-647 requires an FBI background
                                   check. Each employee must submit fingerprints obtained by a law
                                   enforcement officer and a statement of personal history which are then
                                   forwarded to GSA's Federal Protective Service (FPS) which requests
                                   background information from the FBI.

                                   In addition, the process for obtaining the required clearances is not
                                   effective because of a lack of coordination and/or communication
                                   between child care centers, child care coordinators, and the FPS. For
                                   example, we identified instances where coordinators miSinterpreted the
                                   law or believed that initiation of the clearance process was an FPS
                                   responsibility. Also, when centers initiate requests for security
                                   clearances, the current process is slow and is not being given adequate
                                   attention. We found instances of clearances remaining incomplete for
                                   more than 6 months.

                                   We also identified two centers operating without GSA licenses and one
                                   operating with an expired license. License agreements between GSA
                                   and the center, or the center board of directors, provide the authority
                                   for operation of the center in GSA-controlled space. The agreements
                                   siaie that as a condition of operation, the requirements of
                                   P.L. 101-647 must be met.

                                   Because ihis was an interim report, we did not make any formal
                                   recommendations. We urged the Acting Deputy Administrator to direct
                                   Regional Administrators and the FPS to take immediate action to
                                   expedite the background check process to ensure clearances are
                                   obtained for all child care center employees as qUickly as possible and
                                   ensure that license agreements are signed for each of the centers. We
                                   also have kept the Regional Administrators apprised of our findings as
                                   they are developed. While our work in this area continues, Agency
                                   officials are taking steps to remedy the shortcomings already identified.



12   Semiannual Report To The Congress
Reviews of GSA Programs

   GSA's Compliance with Section 10 of the General Provisions
   of Public Law 100-440
   An OIG review of GSA's efforts to implement Section 10 of the General
   Provisions of the Treasury, Postal Service and General Government
   Appropriations Act of 1989 (Public Law [P.L.1 100-440) determined
   that GSA never fulfilled this provision which authorized and directed
   GSA to hire up to, and maintain, an annual average of not less
   than 1 ,000 full time equivalent positions (FTE) for Federal Protective
   Officers. This was to be accomplished by increasing the staffing level
   by at least 50 positions each year so that the 1,000 FTE goal could be
   achieved by Fiscal Year 1992.

   The review determined that GSA management did not support a larger
   uniformed protection unit, and instead, continued to direct additional
   resources into an alternative protection program which had been
   presented to Congress prior to the enactment of P.L. 100-440. Some
   Agency officials interpreted reduced funding and denial of additional
   positions requested by the Office of Management and Budget in
   appropriations for the years following the law's passage as an
   indicator that the hiring provision was no longer in effect.

   The review concluded that the hiring provision of the law was widely
   known by Agency management responsible for direct and support
   activities involving the Federal Protective Service program. Yet, the
   Agency made no effort to implement the hiring provisions. Program
   managers, aware that the law was not being implemented, could have
   expressed concern by acknowledging noncompliance with P. L. 100-
   440 as a material weakness in the Federal Managers' Financial
   Integrity Act (FMFIA) process. We believe that Agency management
   had the responsibility to work with Congress to have the law changed,
   a step now being taken. We also suggested that management disclose
   this matter in this year's annual report under FMFIA.

   The report is advisory in nature and does not contain formal
   recommendations.

   Award of Task Orders
   The OIG performed two limited reviews of GSA's contract with a
   private sector consulting firm hired to provide quality management
   consulting and training services for analyzing GSA's business lines.
   One review examined the propriety of the contract used to obtain the
   services; the other looked for any potential or actual conflicts of
   interest inherent in the contract award to the vendor.

   To meet the Administration's call for an acceleration of its reinvention
   activities, GSA hired an outside consultant to assist in the analyses of
   its business lines. To obtain this assistance quickly, GSA used the
   Quality Management Implementation (QMI) Services Multiple Award


                                               Office of Inspector General   13
                                views ofG                  Programs

                                 Schedule (MAS) as the procurement instrument. This schedule
                                 identifies qualified vendors that offer consulting and training services
                                 and related products for the implementation of quality management
                                 within Federal agencies.

                                 Our report disclosed that the nature of the services to be performed by
                                 the contractor falls within the parameters of the QMI schedule
                                 contract. However, the way in which the task orders were structured
                                 indicates that the QMI schedule was not the right instrument for this
                                 procurement. The report found that the way GSA used the QMI
                                 schedule contract may have circumvented established procedures.

                                 The QMI Services schedule contract provides that orders placed under
                                 the schedule will be firm-fixed price; however, GSA issued orders
                                 having characteristics of cost-reimbursement type contracts. This
                                 change in contract type may have had the effect of reducing
                                 competition which leaves the Government with little or no guarantee
                                 that the prices for the contractor's services are reasonable.

                                 In addition, GSA did not consolidate the procurement action to take
                                 advantage of the Government's volume purchasing power. Rather, the
                                 Agency established orders for each of the seven phases of work which
                                 appears to circumvent the schedule's $1 million maximum order
                                 limitation. Also, in justifYing the selection of the contractor, GSA
                                 applied additional evaluation criteria without giving other vendors the
                                 chance to address the new criteria. In doing so, GSA limited
                                 competition.

                                 Finally, under the terms of the order, GSA has no guarantee of
                                 receiving a final product. Although the vendor is obligated to use its
                                 best efforts to perform all work within the estimated hour and dollar
                                 parameters, the order contains a "limitation of cost" clause.
                                 Consequently, the vendor has no absolute legal obligation to complete
                                 the work reqUirements once it reaches the hour or dollar performance
                                 ceiling.

                                 The report concluded that, while acquiring services in an expeditious
                                 manner, GSA has sacrificed price reasonableness and guaranteed
                                 final products, and may have potentially violated the full and open
                                 competition requirement of the Competition in Contracting Act of
                                 1984. In addition, the size and scope of the work required to evaluate
                                 GSA's business lines are too large and too complex to use a standard
                                 commercial service MAS contract.

                                 Our second review did not identifY any conflicts of interest in the
                                 award of the business line analyses contract to the consulting firm.
                                 However, conflicts of interest are possible if the contractor's role
                                 becomcs one of managing and directing business line analyses as
                                 opposed to advising and assisting, as required by the contract.



14 Semiannual Report To The Congress
Reviews of GSA Programs

   Previously, the consulting firm was hired to audit and provide an
   independent opinion on GSA's financial statements. We believe the
   contractor's ability to render an impartial audit opinion on GSA's
   financial statements probably is not impaired, provided its relationship
   with GSA under the business line contract remains strictly one of
   advising and assisting.

   In addition, while the contractor is obligated to protect GSA's
   confidential information against release to unauthorized persons, this
   protection is provided only by professional standards. Neither Federal
   regulations nor the contract itself appear to provide any definitive
   protection against the release of confidential data by the contractor.
   Consequently, we believe this issue should have been specifically
   addressed in the business line analyses contract.

   The April 13 and May 19, 1995 reports are advisory in nature and
   contain no recommendations.

   Lease Acquisition Process
   GSA serves as the Government's agent in acquiring space for Federal
   agencies. To fulfill this responsibility, the Agency constructs,
   purchases, and leases space to meet the needs of its customer
   agencies. GSA has an inventory of 6,345 leases totaling over
   113 million square feet at an annual cost of approximately $2 billion.

   The OIG reviewed the lease acquisition process to evaluate the
   timeliness of awarding leases to customer agenCies and to identifY
   opportunities for improvement. To develop a broader knowledge of
   leasing, the auditors contacted 50 State governments and selected
   three for detailed study. Also, the auditors interviewed eight private
   sector real estate firms. Based on the audit findings and these
   interviews, the review concluded that opportunities exist to improve
   and streamline the lease award process.

   In 1988, a management review concluded that the space delivery
   process was unfocused, slow, confusing, and a source of frustration to
   both customers and realty speCialists. Recent General Accounting
   Office audits and testimony have reported on problems in GSA's real
   property management program. lne National Performance Review
   (NPR) report proposed a dramatic change to the way GSA does
   business. In the real property services area, the NPR report called for
   GSA to become a provider of choice and compete with other sources.
   To address the concerns identified in the NPR report, GSA has
   established reinvention laboratories and task forces to study and test
   different approaches to the problems.

   The OIG report showed that leases are not awarded in a timely manner.
   The lease acquisition process includes over 80 processing steps. The
   average award time was 15 months, while State governments award


                                               Office of Inspector General   15
                                 views of GSA Programs

                                   leases in 6 months. Although customer agencies were satisfied with
                                   the space, they were not satisfied with the time it takes to acquire the
                                   space or the process itself. The primary cause of the time consuming
                                   process was that lease acquisition was procedurally oriented and
                                   contained inefficient practices. The process has many steps and
                                   depends on the timely interaction among divisions, services, and
                                   agencies. The steps were designed to address over 70 laws,
                                   regulations, and policy statements resulting in redundant procedures.

                                   Also, procedures and practices need to be improved in a number of
                                   areas so that the lease award process would be more cost effective and
                                   results oriented. These include the areas of requirement definition,
                                   acquisition plan, market research, appraisals, preaward fire safety
                                   reviews, and documentation. For example, GSA works with the
                                   customer agency to develop its space requirements. Changes to the
                                   requirements frequently caused the process to start over again. The
                                   realty specialists emphasized that customer agencies nullified weeks
                                   of work and caused delays by changing requirements. At the same
                                   time, the agencies were frustrated by the lease acquisition process
                                   which then became a disincentive for agencies to promptly provide
                                   their requirements. Improved communication between GSA and
                                   customer agencies could reduce delays by minimizing changes to
                                   space requirements.

                                   The Agency could shorten the process used to obtain information
                                   about the real estate market and identity qualified offerors. The time
                                   used from the start of the acquisition process through the completion
                                   of the market survey averaged 159 days, just over 5 months. The
                                   three States the OIG surveyed take approximately 6 months for the
                                   entire lease acquisition process. The private sector identified market
                                   research as the key to successfully filling its customers' needs, but it
                                   used a less procedurally oriented approach than GSA for identifYing
                                   available properties.

                                   The report stated that the management of the lease acquisition
                                   process needs to be more focused and efficient to increase its ability to
                                   award leases in a timely manner. Lease extensions and short lease
                                   terms are used frequently. The private sector and State leasing
                                   organizations focused on cost and results oriented approaches. This
                                   results in a less cumbersome and less time consuming process.

                                   In the last few years, GSA has initiated several undertakings to
                                   improve its space delivery operations. These include the establishment
                                   of a real property task force, the establishment ofleasing laboratories,
                                   and the development of the Advanced Acquisition program. The focus
                                   of these initiatives is to identity and test new approaches to space
                                   delivery. Also, the Agency is reducing the layers of oversight and
                                   addressing some of the burdensome legislation. However, more needs
                                   to be done.



16   Semiannual Report To The Congress
Reviews of GSA Programs

   Our report concluded that to be competitive, the process will have to
   be streamlined and be more responsive to customer satisfaction
   issues.

   The June IS, 1995 report, included recommendations that the
   Commissioner, Public Buildings Service:

   •   Work more closely with the customer agencies to develop their
       space requirements. Address space requests within a reasonable
       time frame.

   •   Continue streamlining efforts.

   •   Take a more proactive approach to market research by providing
       realty specialists with computerized data bases to identifY
       available space and to develop data on lease rates.

   •   Minimize use of short lease terms and frequent extensions while
       maximizing use of expedited leasing procedures.

   We issued this report in final without Public Buildings Service's
   comments. The audit is still in the resolution process.

   Bui/dings Operations and Maintenance Services
   As part of its overall buildings operation and maintenance
   responsibilities, GSA provides above-standard space alteration
   services to customer agencies on a reimbursable basis. GSA uses the
   reimbursable work authorization (RWA) process to provide these
   services which can range from lock rekeying to major office-wide
   renovations. During the period April I, 1993 through March 31, 1994,
   GSA completed about 5,800 space alteration RWAs costing $25,000 or
   less at a total cost of $21.5 million. These account for 95 percent of
   the total RWAs, and are often the cause of customer dissatisfaction
   due to untimeliness.

   HistOrically, customer agency officials are the least patient with delays
   in smaller type alteration projects, believing that the projects should
   be completed quicker. Accordingly, our review objective was to
   evaluate how GSA management and procedures for processing and
   performing RWAs could be streamlined and improved to be more
   responsive to customer agencies' needs. We reviewed the RWA
   practices at four Field Offices, and met with representatives of four
   States and five private facility management companies to compare
   best practices.

   Although GSA has initiated some actions to improve timeliness of
   RWAs, additional opportunities exist for streamlining the RWA
   process and meeting customer agency needs more quickly. We found
   that average administrative processing time actually exceeded the


                                                Office of Inspector General   17
                          Reviews of GSA Programs

                                 time spent performing the necessary construction work-55 days
                                 compared to 45 days-and thus doubled the total amount of time
                                 needed to perform projects to an average of 100 days. GSA's 14-step
                                 approach for processing and performing RWAs creates numerous
                                 opportunities for delays and causes customer dissatisfaction through
                                 excessive reviews, redundant routing procedures, and repeated
                                 transfers of forms.

                                 We found that delays occurred at several stages of the RWA process.
                                 In many cases, fleld offices prepared independent Government
                                 estimates which were not required. The average time was 12 days. An
                                 additional delay of up to 15 days occurred while funds were certifled
                                 by the customer agency. Finally, delays of up to 39 days were
                                 experienced if Field Offices ordered work from open-market vendors.
                                 Much of the delay in ordering work was caused by internal processing
                                 of the certifled RWA form which repeats much of the initial RWA
                                 request process.

                                 The State governments and private facility management companies we
                                 reviewed used much simpler processes to accomplish similar space
                                 alteration projects. These organizations used a Simpler request form,
                                 required less documentation, had fewer review levels, and used a
                                 streamlined process that avoided repetitive routing procedures,
                                 thereby decreasing the amount of time needed to process and perform
                                 space alterations. Under the streamlined processes, agencies only had
                                 to submit the project request form once (to request work and certifY
                                 funding availability), instead of twice as in GSA's RWA process.
                                 Estimates were prepared based on State general services officials' past
                                 project experience as opposed to GSA's reliance on more formalized
                                 documentation. In one State, we found that many projects were
                                 completed within 1 month, including all administrative processing
                                 and construction work.

                                 We believe that a less formal approach will result if GSA eliminates
                                 much of the administrative processing and allows agencies to obtain
                                 estimates over the telephone or by facsimile, and then submit "pre-
                                 certified" RWA request forms just once, with no need for the Field
                                 Offices to return the form to customer agenCies. Our analysis
                                 indicated that this results-oriented approach would greatly improve
                                 timeliness and customer satisfaction in that it would reduce the
                                 current lengthy and cumbersome process to about five steps.

                                 In addition, we found that several Field Office practices further
                                 contribute to delays and customer dissatisfaction. Most Field Offices
                                 do not monitor the progress of RWA projects against target completion
                                 dates. As a result, projeets can be delayed for several weeks without
                                 management's knowledge, until the customer agency complains. Also,
                                 communication between Field Offices and customer agencies is
                                 lacking. We believe that if customer agencies received periodic reports
                                 on each RWA and understood the RWA process, they would know


18 Semiannual Report To The Congress
Reviews of GSA Programs

   what delays were occurring and why, and whom to call if they were not
   satisfied, which could directly improve customer satisfaction. Finally,
   Field Offices use the lengthy RWA process for many minor, low-cost
   alteration projects such as small carpeting or painting tasks. Using
   alternative methods outside the RWA process could expedite these
   small projects, improve customer satisfaction, and be cost effective.

   Our August IS, 1995 report included recommendations that the
   Commissioner, Public Buildings Service:

   ..   Streamline the current RWA process by using expedited
        procedures and simplified forms that avoid excessive reviews and
        redundant routing between officials.

   II   ModifY Field Office practices by directing managers to monitor the
        progress of RWA projects against target completion dates,
        requiring more communication with customer agencies, and
        determining whether "express" procedures could be developed to
        expedite minor projects.

   The Commissioner generally agreed with the recommendations in the
   report. The audit is still in the resolution process.

   Commercial Facilities Management Contracts
   GSA management in one region requested that the OIG perform an
   independent comparison of two methods used to acquire building
   management services to determine which is the most cost effective and
   advantageous to the public. The OIG compared the commercial
   facilities management (CFM) contract, which "bundles" the required
   building services into one contract, with the separate service contract
   (unbundled) method. These building services typically may include
   overall facility management. operation and maintenance of mechanical
   and electrical equipment, architectural and structural maintenance,
   janitorial and pest control, trash removal, landscape and grounds
   maintenance, reimbursable services, utilities, and protection.

   In the mid-19S0s, GSA awarded 10 CFM contracts for 13 buildings.
   These contracts were intended to reduce the amount of Field Office
   administrative resources required to obtain building services. The
   contractor provided a bundle of services, such as those listed above.
   Later, regional management decided that CFM contracts were not
   always the most advantageous or cost effective method of obtaining
   building services, so seven of the 10 CFM contracts were replaced by
   separate service contracts.

   During our review, OIG auditors interviewed tenant agency personnel
   located in three buildings, interviewed seven private sector building
   managers, and asked thc Region's Field Office managers' opinions on
   the advantages and disadvantages of the methods of obtaining building


                                               Office of Inspector General   19
                            Reviews of GSA Programs

                                   services. We also compared two CFM contracts to the unbundled
                                   contracts they replaced.

                                   Although GSA's tenants were generally satisfied with building services
                                   under either type of contract. we concluded that CFM contracts were
                                   more costly. CFM contractors are paid fees for managing and
                                   inspecting the work done. However, to protect the Government, Field
                                   Offices still inspect and accept work completed by CFM contractors,
                                   thus duplicating part of the CFM's work. In addition, CFM contractors
                                   are not exempt from State and local government utility taxes and have
                                   no incentive to conserve utilities. When GSA took over energy
                                   management at two of the buildings, there was a significant reduction
                                   in energy consumption which resulted in energy rebates of almost
                                   $180,000. We estimated that utility taxes at three buildings would
                                   have been $61,000 under CFM contracts.

                                   Both of the CFM contracts we reviewed included provisions for repair
                                   and alteration work. However, neither contractor had adequate staff to
                                   accomplish the required work in a timely and efficient manner while
                                   maintaining its normal workload. Therefore, the Field Office managers
                                   at these buildings relied on existing term contracts, along with
                                   independent contractors, to accomplish the work. The report showed
                                   there is little difference between accomplishing repair and alteration
                                   work under the CFM contract than through unbundled contracts.

                                   We believe that the use of in-house personnel may create further cost
                                   savings because this reduces the need for services by outside
                                   contractors. Our discussions with Field Office managers and private
                                   sector building managers support this conclusion. GSA's in-house
                                   activities have proven to be the most cost effective mechanical
                                   maintenance service providers when bidding against private sector
                                   contractors. Field Office managers generally prefer to maintain a core
                                   GSA staff to manage the unbundled contracts, believing that this
                                   allows them to maintain better building control and creates a feeling
                                   of pride of ownership. This opinion is shared by private sector building
                                   managers who believe that employing an in-house staff is less
                                   expensive when there is enough work to be done. Also, the work is
                                   done more quickly because the staff knows the building and is
                                   immediately available for emergencies.

                                   In addition, the private sector building managers suggested that a
                                   group of contractors be prequalified at the beginning of the year to do
                                   the repair and alteration work. These pre qualified contractors would
                                   then bid on specific projects. The use of priority contractors could
                                   expedite the work and limit the time spent on paperwork.

                                   Finally, CFM contracts do not accomplish the social programs
                                   supporting small businesses and handicapped individuals as
                                   mandated by the Small Business Act and the Javits-Wagner-O'Day
                                   Act. Combining service requirements into one contract bypasses the


20   Semiannual Report To The Congress
Reviews of GSA                     ograms

   Acts because the size and diversity of CFM contracts exceeds the
   resource capability of most small businesses.

   The August 22, 1995 report included recommendations that the
   Regional Administrator:

   ..   Maximize the use of unbundled service contracts, as opposed to
        CFM contracts.

   ..   Utilize in-house mechanical maintenance operations as much as
        possible.

   ..   PrequalifY contractors, to the extent practicable, to bid on specific
        repair and alteration projects during a specified period.

   The Regional Administrator agreed with recommendations in the
   report. The audit is still in the resolution process.

   Household Goods Program
   When Congress approved GSA's Fiscal Year (Fy) 1994 appropriation,
   the House Committee on Appropriations directed the Agency to review
   its direct appropriated activities for possible conversion to reimburs-
   able funding. One of the programs identified for conversion was GSA's
   Household Goods Traffic Management program. An OIG review of the
   conversion of the program to reimbursable funding determined that
   the conversion had shortcomings. The shipment surcharge developed
   by GSA to generate revenue for the program was not supportable
   primarily because of the lack of detailed accountability over program
   costs.

   The goal of the program is to help ensure that household goods of
   relocating civilian Government employees are moved in an efficient,
   cost effective manner. For each move made by civilian agencies under
   the program, GSA provides the agencies with information that
   compares program carriers by quality and cost of service. Agencies
   use the information to select carriers to perform the moves. For
   calendar year 1992, household goods carriers stated that there were
   22,440 household goods moves involving civilian Government
   agencies with total costs of $88.5 million. To accomplish self-
   sustaining program funding, GSA decided to assess a shipment
   surcharge on moves made under the program. Carriers were to
   include an $85 surcharge on their billings to agencies and remit those
   fees to GSA.

   The report disclosed that GSA's computation of the $85 shipment
   surcharge was based on estimated program costs and an estimated
   number of shipments because the Agency did not maintain detailed
   accountability over program costs and did not know the actual
   number of annual household goods moves made under the program.


                                                 Office of Inspector General   21
                                                   GSA Programs

                                   Therefore, there may be a wide variance between surcharges collected
                                   and program costs incurred. We found that costs applicable to other
                                   programs were included in the costs for the household goods program
                                   and other costs could not be verified to financial records. For example,
                                   the surcharge included costs for 14 positions in three zonal offices,
                                   but eight of the positions were for employees whose work during
                                   Fiscal Year 1994 was generally not related to the program.

                                   Our discussions with Agency officials revealed that they were aware of
                                   some of the problems and were working to develop more accurate
                                   measurement of program costs and the number of shipments made
                                   under the program. For example, GSA is working with the Office of
                                   Finance to develop an improved cost accounting system for the
                                   program, reviewing how to treat personnel costs of zonal employees
                                   who perform non-household goods program activities, and requesting
                                   that customer agencies notifY the Agency of the number of moves they
                                   make under the program.

                                   These actions should allow GSA to more accurately compute shipment
                                   surcharges in the future. Accordingly, we did not make any
                                   recommendations. The OIG plans to review the shipment surcharge
                                   again in a year to evaluate the improvements and determine if the
                                   amount is recovering program costs.

                                   Motor Freight Program
                                   GSA provides freight transportation assistance to civilian Federal
                                   agencies through its motor freight program. The Agency provides
                                   ongoing policy gUidance to program personnel and annually updates
                                   the rules which program carriers must follow (the Standard Tender of
                                   Service). Motor carriers submit discounted transportation rates
                                   (tenders) to GSA. As of July 1994, GSA had apprOximately
                                   1,500 general territorial tenders (state-to-state rates) and
                                   339 standing route orders (location-specific origin and/or
                                   destination). During Fiscal Year 1994, the zonal offices provided rating
                                   and routing assistance to move over 37,000 shipments for other
                                   agencies at a cost of $36.6 million, and about 220,000 shipments
                                   from GSA's distribution centers at a cost of $23.1 million. In 1995,
                                   Congress directed GSA to make the freight program financially self-
                                   sustaining.

                                   The OIG reviewed GSA's motor freight program to provide the Agency
                                   with information it could use to evaluate the current program,
                                   improve service, and lower costs for Federal civilian agencies. The OIG
                                   auditors held discussions with officials responsible for freight
                                   distribution at civilian and military agencies and with individuals in
                                   the private sector to identifY best practices. These individuals told us
                                   thcy have improved their motor freight services and rates, reduced
                                   management and operating costs, and positively impacted their



22   Semiannual Report To The Congress
Reviews ofG

   overall operations by using an automated freight management system;
   free on board (FOB) origin delivery terms; fewer carriers; and a
   simplified rate structure.

   Transportation experts advised us that the key to a successful motor
   freight program was a comprehensive, cost effective, automated freight
   management system. (GSA began implementing an automated system
   in 1994. Phase one enabled carriers to electronically submit tenders
   and for Government agenCies to electronically access the tenders.)
   They also noted that a comprehensive system should contain
   additional features, including calculating shipment mileage, issuing
   bills of lading for GSA-directed shipments, and electronically auditing
   motor freight carrier invoices prior to payment. An automated freight
   management system performing these functions could greatly reduce
   administrative effort and costs by simplifying functions which were
   done manually.

   The Departments of Energy (DOE) and Defense (DOD) have spent
   several years and millions of dollars developing automated freight
   management systems with the features private sector companies,
   carriers, and other Government agenCies told us were important.
   Subsequently, GSA has initiated discussions with DOE officials about
   the possibility of combining features of DOE's system with GSA's
   automation effort.

   Our report stated that the private sector companies advocate
   awarding contracts which permit use of either FOB origin or FOB
   destination delivery terms. All of the large private sector companies we
   interviewed support the use of FOB origin because of lower
   transportation costs, better carrier service, lower distribution costs,
   better data, and easier resolution of problems with carriers. Although
   we are not advocating exclusive use of either FOB origin or FOB
   destination, we believe that implementation of an automated system
   would enable GSA to more easily determine the most efficient method
   to use for shipping individual orders.

   Also, carriers, agencies, and private sector companies told us of the
   advantages of using fewer carriers. The benefits are easier interaction
   with carriers, greater control over carriers, and lower transportation
   rates.

   The motor carrier industry has traditionally employed a rate structure
   with many different rates based on the commodities and cities
   involved. GSA, private sector companies, and other Government
   agencies have Simplified this structure by soliciting rates which are
   effective for 1 year for most types of commodities and all cities in a
   particular state. Lower rates are negotiated for some high-volume
   routes and particularly large shipments. Some private sector
   companies have Simplified their rates even further by negotiating rates
   for larger geographic areas and longer term agreements. Carrier and


                                               Office of Inspector General   23
                           Reviews of GSA Programs

                                 company officials told us that accurate data on historical freight
                                 volume, commodities, and routes are essential to further simplifY rate
                                 structure. GSA does not currently have this data, but could obtain it
                                 from the automated freight management system.

                                 In addition, we believe that encouraging potential customers to help
                                 GSA identifY and implement program enhancements may enable the
                                 program to improve service for current customers and prOvide service
                                 to additional agenCies. Companies, carriers, and agenCies said that
                                 aggregating more of the Government's freight volume could result in
                                 reduced personnel costs in other agencies, reduced automation
                                 expenses, more useful data, and lower transportation rates.

                                 In our report we stated that freight management practices of private
                                 sector companies and the Government are dynamic rather than static.
                                 Companies and Government agenCies may develop new ideas which
                                 could work better or further refine existing processes. We advised
                                 management that it would benefit GSA to continually benchmark with
                                 companies, carriers, and other agencies by maintaining an ongoing
                                 dialogue with them and testing promising new ideas.

                                 The report is advisory in nature and does not contain any
                                 recommendations.




24 Semiannual Report To The Congress
                       Prevention Activities

                       In addition to detecting problems in GSA operations, the OIG is
                       responsiblefor initiating actions to preventfraud, waste, and abuse and
                       to promote economy and efficiency.

                       The OIG's pre award audit program provides information to contracting
Significant Preaward   officers for use in negotiating contracts. The pre-decisional, advisory
Audits                 nature of preaward audits distinguishes them from other audits. This
                       program provides vital and current information to contracting officers,
                       enabling theihlo significantly improve the Government's negotiating
                       position and realize millions of dollars in savings on negotiated
                       contracts. This period, the OIG performed preaward audits of
                       148 contracts with an estimated value of over $940 million. The audit
                       reports contained over $63 million in financial recommendations.

                       Multiple Award Schedule Contracts
                       This period, three of the more significant Multiple Award Schedule
                       contracts we audited had projected Governmentwide sales totaling over
                       $122 million. Based on the audit findings, we recommended that over
                       $12 million in funds be put to better use.

                       The OIG evaluated discount schedule and marketing data submitted in
                       response to GSA's solicitations for the purchase of construction and
                       highway maintenance eqUipment; hospital beds and patient room
                       accessories; and the purchase and rental of mail and parcel processing
                       equipment.

                       The audits disclosed common problems in the proposals. Companies
                       were offering commercial customers better pricing than offered to GSA.
                       The companies either did not disclose the full extent of higher
                       discounts granted to other customers or did not provide adequate
                       justification for not offering the higher discounts to GSA.

                       Other Contracts
                       Three of the more significant contract audits performed by the OIG
                       contained proposed prices totaling $46 million and recommended
                       adjustments of more than $6 million. In audits of proposals for
                       construction management services and architect and engineering
                       services, we advised the contracting officer that the contractors had
                       overstated their proposed direct labor and overhead costs. In an audit
                       of a change order proposal for construction site excavation services, we
                       informed the contracting officer that the proposal was overstated. The
                       results also were qualified because the contractor refused to provide
                       documentation requested by the auditor, and failed to respond to
                       inquiries regarding proposed costs. Therefore, we advised the
                       contracting officer that the contractor should not be compensated for
                       any costs for which adequate documentation and information were not
                       provided.




                                                                   Office of Inspector General   25
                                Prevention Activities

                                 The OIG presents Integrity Awareness Briefings nationwide to educate
Integrity Awareness              GSA employees on their responsibilities for the prevention of fraud
                                 and abuse, and to reinforce employees' roles in helping to ensure the
                                 integrity of Agency operations.

                                 This period we presented 30 briefings attended by 698 regional
                                 employees. These briefings explain the statutory mission of the OIG
                                 and the methods available for reporting suspected instances of
                                 wrongdoing. In addition, through case studies and slides, the briefings
                                 expose GSA employees to actual instances of fraud in GSA and other
                                 Federal agencies.

Hotline                          The OIG Hotline provides an avenue for concerned employees and
                                 other concerned Citizens to report suspected wrongdoing. Hotline
                                 posters located in GSA-controlled buildings, as well as Hotline
                                 brochures, encourage employees to use the Hotline.

                                 During this reporting period, we received 115 Hotline calls and
                                 letters. Of these, 98 complaints warranted further GSA action,
                                 7 warranted other agency action, and 10 did not warrant action.

Advisory Lease                   The ~iG's program for reviewing leases prior to award provides front-
                                 end assurance that GSA is adhering to regulations and procedures
Reviews                          before awarding selected leases exceeding established thresholds.
                                 These reviews, although advisory in nature, promote opportunities for
                                 economy and efficiency in the leasing area, and the avoidance of
                                 problems before they occur. This period we received 21 lease
                                 proposals for review and completed 2 audits. No deficiencies were
                                 noted in either of the proposals. The Agency has identified the leasing
                                 program for evaluation as a nationwide reinvention project. The OIG
                                 will provide an independent verification of the evaluation process.

Implementation                   The OIG performs independent reviews of implementation actions, on
                                 a selected basis, to ensure that management's corrective actions in
Reviews                          response to OIG recommendations are being accomplished according
                                 to established milestones. This period, the OIG performed 7 imple-
                                 mentation reviews. In 6 of the reviews, the recommendations were
                                 fully implemented. In the seventh review, 2 recommendations have
                                 been partially implemented.




26 Semiannual Report To The Congress
                                                                       1!!il"Rf        "

Review of Legis/ation and

         The Inspector General Act of 1978 requires the OIG to review existing
         and proposed legislation and regulations to determine their effect on the
         economy and efficiency oj the Agency's programs and operations and
         on the prevention and detection ofjraud and mismanagement.

         During this period, the OIG reviewed 260 legislative matters and
         45 proposed regulations and directives. The OIG provided significant
         comments on the following legislative items:

         e    S. 675, a Bill Automating the Multiple Award Schedule
              Program. We expressed our general support for automating the
              GSA Multiple Award Schedule (MAS) program and streamlining
              the ordering process. However, we expressed significant concern
              over the bill's pilot program provisions which would, among other
              things, provide for the establishment of an automated pilot
              program for all information technology (IT) items wherein price
              negotiations would be eliminated and instead MAS contracts
              would be negotiated on terms and conditions alone. We noted our
              general objection to such a pilot on the basis that direct
              competition in an electronic medium will not substitute well for
              price negotiations and information disclosures because of the
              nature of the MAS program, Federal agencies' ordering practices
              and preferences, and the nature of particular multiple award
              schedules.

         ..   H.R. 1670, Federal Acquisition Reform Act of 1995. We noted
              our concern with several provisions of this bill. First, we stated our
              strong opposition to the elimination of the catalog or market price
              exception to the Truth in Negotiations Act (TINA), under which
              most MAS contracts are negotiated. We also noted our concerns
              regarding the bill's establishment of a new approval procedure for
              procurement related regulatory certifications that would require
              the approval of the Administrator of the Office of Federal
              Procurement Policy (OFPP). Finally, we suggested two
              clarifications in the new procurement integrity scheme proposed
              by the bilL

         ..   H.R. 1795, Federal Acquisition Improvement Reform Act of
              1995. We noted several concerns during our review of this bill
              which would expand the use of Simplified acquisition procedures,
              make certain competition related changes, and revise Federal
              procurement integrity statutes. Chicfly, we expressed concerns
              regarding the bill's proposed application of Simplified procedures
              to the acquisition of commercial items of any dollar value. In this
              connection. wc also commented on our concerns regarding the
              implementation of the Simplified acquisition dollar threshold,
              $100,000, to leases on an average annual rent basis rather than a
              total rent basis. We commented that Simplified procedures may
              not be appropriate for use in the context of such complex, large
              value leasing actions. We acknowledged the need to provide


                                                       Office of Inspector General   27
                 Review of Legislation and Regulations

                                         contracting officials some flexibility to narrow the competitive
                                         range and hold preproposal conferences. Finally, we suggested
                                         some definitional clarifications in the bill's proposed sections
                                         relating to value engineering and procurement integrity.

                                   ..    S. 946, Information Technology Management Reform Act of
                                         1995. The bill would set up a new and separate scheme for the
                                         oversight and conduct of procurements of IT items, make certain
                                         changes to the TINA, and impose mandatory termination require~
                                         ments on IT acquisitions that are a certain percentage above cost
                                         or behind schedule. Initially, we commented that we believed the
                                         size and complexity of a procurement, rather than the item being
                                         procured, should determine the procurement procedures in place.
                                         We also cautioned against the creation of an additional TINA
                                         exception, in light of the recent, but not fully implemented,
                                         amendment of TINA by the Federal Acquisition Streamlining Act
                                         (FASA). We felt that an additional exception for IT items would
                                         unnecessarily complicate the statute and potentially compromise
                                         existing assurances of price reasonableness in negotiations of GSA
                                         MAS contracts for IT items. Finally, we noted that the provisions
                                         mandating automatic termination of IT procurements that were a
                                         certain percentage above cost or behind schedule were somewhat
                                         draconian and arbitrary.

                                   "     Title VIII of H.R. 1530, Acquisition Policy Provisions of the
                                         National Defense Authorization Act. We commented that the
                                         proposed bill which, as passed by the House of Representatives,
                                         contained amendments at Title VIII similar in substance to
                                         H.R. 1670, the Federal Acquisition Reform Act of 1995, and
                                         H.R. 1795, the Federal Acquisition Improvement Reform Act,
                                         concerned us because of its potential negative impact on the
                                         procurement of commercial items in general, and GSA's MAS
                                         program in particular. Our comments dealt chiefly with the
                                         negative impact on MAS program prices of the bill's elimination of
                                         the catalog price exception and substitution of a blanket
                                         commercial items exception, and the threshold need for a new
                                         approval process for procurement related regulatory certifications
                                         process requiring the approval of the Administrator of the OFPP.

                                   ..    Amendment 2118 to S. 1026, DOD Authorization Act.
                                         Amendment 2118 consisted of a substantially revised version of
                                         S. 946, the Information Technology Reform Act of 1995, together
                                         with S. 675, the MAS automation bilL With respect to the revised
                                         S. 946. contained in Sections 4001 through 4303 of the bill, we
                                         noted that many of our concerns relating to the original bill's
                                         provisions, namely the establishment of a Governmentwide Chief
                                         Information Officer in the Office of Management and Budget and a
                                         separate TINA exemption for IT commercial items, had been
                                         allayed as the bill's language had been modified. However, we
                                         noted that the Amendment continued to contain provisions which


28   Semiannual Report To The Congress
Review of Legislation and Regulations

             would repeal the GSA's authority under the Brooks Act to direct
             and coordinate purchases of IT Governmentwide. We
             acknowledged that the Brooks Act could benefit from adjustments,
             however, we commented that the GSA has developed considerable
             valuable experience in overseeing IT procurements. We endorsed
             the provisions of the Amendment which would allow individual
             agencies with experience in IT procurement to act as executive
             agents and to assist in the procurement of major IT for other
             executive agencies.

             We forcefully repeated our concerns with Title XLN of S. 675, the
             MAS automation bill, which would establish on a 4-year "pilot
             basis" an automated system that would allow contractors to list
             products and prices electronically and which would limit
             negotiations to terms and conditions other than price. As a
             threshold matter, we expressed our concern with the breadth and
             size of the pilot program: it would encompass all GSA IT MAS
             contracts, a program worth $1.7 billion annually. We also added
             that effective evaluation by the General Accounting Office would
             not be possible if all IT schedules were included within the pilot
             program. Most importantly, we noted that we felt that direct
             competition envisioned by the pilot program would not substitute
             effectively for price negotiations on MAS contracts and the
             Government would lose its ability to obtain fair and reasonable
             prices.

         •   S. 1130, Accounting Standardization Act of 1995. Although we
             noted the ~iG's support for the modernization and improvement of
             agency accounting systems, we noted two concerns with the
             provisions of this bill which would require Federal agencies to
             implement and maintain a uniform accounting system that
             complied with certain Federal Accounting Standards AdviSOry
             Board standards. First, we noted that the standard of substantial
             compliance was rather indefinite and could benefit from revision.
             We also were concerned with the bill's provision for fairly severe,
             random percentage budget reductions as penalties for
             noncompliance with the bill's mandates.

         •   Because of the many and varied procurement reform proposals
             introduced this year, with the potential for Significantly affecting
             the multi-billion dollar MAS program, the OIG, together with the
             Department of Veterans Affairs OIG, issued a paper entitled
             "Procurement Reform and the MAS Program: Safeguarding the
             Taxpayer's Interests," documenting our concerns that certain
             "reforms" could eliminate key safeguards which have been built
             into the MAS program.




                                                      Office of Inspector General 29
                 Review of Legislation and Regulations

                                   In addition, the OIG provided comments on the following regulatory
                                   items:

                                   ..         Federal Acquisition Streamlining Act of 1994, P.L. 103-355,
                                              Implementing Regulations.

                                         ..     FAR Case 94-790, Commercial Items Acquisition, Proposed
                                                and Draft Final Rule Versions. The rule implements the new
                                                commercial items acquisition provisions of FASA. We agreed
                                                with the underlying principle-to move the Federal Government
                                                towards the procurement of commercial items rather than
                                                procurement of items with Government-unique specifications.
                                                However, we noted several concerns, including the applicability
                                                of the Federal Acquisition Regulation coverage to procurements
                                                that are otherwise exempt from TINA, or the Competition in
                                                Contracting Act, deflciencies in the new consolidated
                                                representation and certification contract proviSion, and the
                                                restriction on inclusion of noncommercial clauses in
                                                commercial items contracts.

                                         ..     FAR Case 94-721, Truth In Negotiations Act Changes, Draft
                                                Final Rule Version. The rule implements changes to TINA that
                                                were mandated by FASA. We expressed several concerns about
                                                the draft final rule's prOvisions. First, we suggested that
                                                regulatory coverage of the catalog or market price exception at
                                                15.802, which was apparently revised in order to allow
                                                contracting officials flexibility, be clarified to make this intent
                                                explicit. Otherwise, we noted that the authority to insert
                                                important protections, such as audit rights or clauses, will be
                                                potentially compromised. We also noted that, based on a
                                                reading of the statute and legislative history, the newly
                                                established commercial item exception clearly applies for
                                                procurements of newly emerging or cutting edge technology
                                                items that do not meet one of the existing exceptions. Finally,
                                                we repeated our objection to the proposed regulatory coverage
                                                which would deflne "adequate price competition" to include
                                                instances where only one offer is received. We noted that in
                                                such situations, the Government's assurances of price
                                                reasonableness are few because the item has not been
                                                effectively exposed to competitive market forces.

                                   Also, the OIG provided comments on the following Agency policy item:

                                   ..         Federal Supply Service Acquisition Letter Extending MAS
                                              Contract Terms. We commented that although we appreCiated
                                              the Federal Supply Service's intent to free administrative
                                              resources to devote to GSA Advantage! (an Agency electronic
                                              ordering system), we felt that it would not be prudent to
                                              automatically extend the terms of MAS contracts in a wholesale
                                              fashion for a 5-year period without effective provisions for revision


30   Semiannual Report To The Congress
Review of Legislation and Regulations

           of the price and outdated or inappropriate terms and conditions.
           Further. we commented that such a blanket extension of contract
           terms may result in the Government overpaying for items on
           Federal supply schedules.




                                                 Office of Inspector General 31
         Statistical Summary of OIG Accomplishments

                                   Audit Reports Issued
                                   The OIG issued 237 audit reports, including 4 audits performed for
                                   the OIG by another agency. The 237 reports contained financial
                                   recommendations totaling $80,363,053, including $64,744,664 in
                                   recommendations that funds be put to better use and $15,618,389 in
                                   questioned costs. Due to GSA's mission of negotiating contracts for
                                   Govemmentwide supplies and services, most of the recommended
                                   savings that funds be put to better use would be applicable to other
                                   Federal agencies.

                                   Management Decisions on Audit Reports
                                   Table 1 summarizes the status of the universe of audits requiring
                                   management decisions during this period, as well as the status of
                                   those audits as of September 30, 1995. Fifteen reports more than
                                   6 months old were awaiting management decisions as of
                                   September 30, 1995; all of them were pre award audits which are not
                                   subject to the 6 month management decision requirement. Table 1
                                   does not include 21 reports excluded from the management decision
                                   process because they pertain to ongoing investigations.


                   Table 1. Management Decisions on OIG Audits
                                                                 Reports with             Total
                                                     No. of       Financial             Financial
                                                    Report~~~.~~!!lmendations       Recommendations
 For which no management decision
 had been made as of 4/ 1 /95
     Less than 6 months old                             92              70              $ 43,629,961
     More than 6 months old                             13              12                 2,138,271
 Reports issued this period                            235            144                 80.363.053
 TOTAL                                                340             226               $126,131,285
 For which a management decision
 was made during the reporting
 period
     Issued prior periods                               90              68              $ 41,534,374
     Issued current period                             140              74                40,716,057
 TOTAL                                                230             142               $ 82,250,431
 For which no management decision
 had been made as of9/30/95
     Less than 6 months old                             95              70              $ 39,646,996
     More than 6 months old                            -1Q            ....l.±              4,233,858
TOTAL                                                  110              84              $ 43,880,854



32   Semiannual Report To The Congress
        Statistical Summary of OIG Accomplishments

                              Management Decisions on Audit Reports With Financial
                              Recommendations
                              Tables 2 and 3 present the audits identified in Table 1 as containing
                              financial recommendations by category (funds to be put to better use
                              or questioned costs). Some of the reports contained recommendations
                              that funds be put to better use as well as questioned costs, and these
                              reports are therefore included in both Tables 2 and 3.




             Table 2. Management Decisions on OIG Audits with
             Recommendations that Funds be Put to Better Use
                                                           No. of                 Financial
                                                          Reports             Recommendations


For which no management decision had
been made as of 4/1/95
   Less than 6 months old                                     57                 $ 43,279,286
   More than 6 months old                                     12                      2,138,271
Reports issued this period                                   112                    64,744,664
TOTAL                                                       181                  $110,162,221
For which a management decision was
made during the reporting period
   Recommendations agreed to by
   management based on proposed
   • management action                                                           $ 70,008,856
   • legislative action
   Recommendations not agreed to
   by management                                                                      1,869,272
TOTAL                                                       111                  $ 71,878,128
For which no management decision had
been made as of 9/30/95
   Less than 6 months old                                     56                 $ 34,050,235
   More than 6 months old                                    --.l±                    4,233,858
TOTAL                                                        70                  $ 38,284,093




                                                                         Office of Inspector General   33
         Statistical Summary of OIG Accomplishmen


                       Table 3. Management Decisions on OIG
                           Audits with Questioned Costs
                                                 No. of          Questioned    Unsupported
                                                Reports            Costs          Costs
 For which no management decision
 had been made as of 4/1/95
    Less than 6 months old                        14       $     350.675           $-
    More than 6 months old                         o                o
 Reports issued this period                       33           15,618,389
 TOTAL                                           47        $15.969,064             $-
 For which a management decision
 was made during the reporting
 period
     Disallowed costs                                      $   7,806,899 *         $-
     Costs not disallowed                                      2,902,059
 TOTAL                                           33        $10,708,958 **          $-
 For which no management decision
 had been made as of9/30/95
     Less than 6 months old                       14       $ 5,596,761             $-
     More than 6 months old                      ~                  o
 TOTAL                                           14        $ 5.596.761             $-
 * $1,738,639 oj this amount was recovered in civil settlements, as reported in Table 5.
 ** Includes $336,655 that management decided to seek that exceeded recommended amounts.




34 Semiannual Report To The Congress
Statistical Summa                   of DIG Accomplishments


                     Investigative Workload
                     The OIG opened 141 investigative cases and closed 143 cases during
                     this period. In addition, the OrG received and evaluated 57 complaints
                     and allegations from sources other than the Hotline that involved GSA
                     employees and programs. Based upon our analyses of these
                     complaints and allegations, OIG investigations were not warranted.

                     Referrals
                     The OIG makes criminal referrals to the Department of ,Justice or
                     other authorities for prosecutive consideration and civil referrals to
                     the Civil Division of the Department of Justice or U.S. Attorneys for
                     litigative consideration. The OIG also makes administrative referrals to
                     GSA officials on certain cases disclosing wrongdoing on the part of
                     GSA employees, contractors, or private individuals doing business
                     with the Government.


             Table 4. Summary of OIG Referrals

  Type of Referral                          Cases                           Subjects
  Criminal                                    17                                 34
  Civil                                        9                                 20
  Administrative                              88                               227
  TOTAL                                     114                                281



                     In addition, the OlG made 34 referrals to other Federal activities for
                     further investigation or other action and 75 referrals to GSA officials
                     for informational purposes only.

                     Actions on DIG Referrals
                     Based on these and prior referrals, 12 cases (17 subjects) were
                     accepted for criminal prosecution and 4 cases (7 subjects) were
                     accepted for civil litigation. Criminal cases originating from OIG
                     referrals resulted in 9 indictments/informations and 18 successful
                     prosecutions. OIG civil referrals resulted in 7 case settlements, 1 civil
                     fraud complaint, and 1 judgment. Based on OIG administrative
                     referrals, management debarred 44 contractors, suspended
                     55 contractors, and took 17 personnel actions against employees.




                                                                   Office of Inspector General 35
        Statistical Summary of OIG Accomplishments

                                   Monetary Results
                                   Table 5 presents the amounts of fines, penalties, settlements,
                                   judgments, and restitutions payable to the U,S. Government obtained
                                   as a result of criminal and civil actions arising from OIG referrals.

                                   In addition, the OIG identified for recovery $3,663,418 in money
                                   and! or property during the course of its investigations.




                        Table 5. Criminal and Civil Recoveries

                                                      Criminal                      Civil

                Fines and Penalties                  $ 29,344                   $
                Settlements or Judgments                                            2,073,239 *
                Restitutions                          382,940                        365,000
                TOTAL                                $412,284                   $ 2,438,239

 * This amount includes $1,738,639 reportable pursuant to section 5(a)(8) of the Inspector General Act as
 management decisions to disallow costs. See Table 3.




36 Semiannual Report To The Congress
APPENDICES
      Appendix /- Significant Audits From Prior Reports

Under the Agency's audit management decision process,            Processing of Thrift Savings Plan
GSA's Office of Management Services and Human                    Transactions
Resources, Office of Management Controls and Evaluation,
is responsible for tracking implementation of audit              Period First Reported: October 1, 1994 to March 31,
                                                                 1995
recommendations after a management decision has been
reached. That office furnished the following status infor-       The review identified opportunities for improvement in
                                                                 the processing of thrift savings plan data and the distri-
mation.
                                                                 bution of eligibility infonnation. The review contained
                                                                 three recommendations which have been completed;
Fourteen audits highlighted in prior Reports to the              however, audit closure awaits a management follow-up
Congress have not yet been fully implemented; all are            review scheduled for completion by October 15, 1995.
being implemented in accordance with currently
established milestones.                                          Real Estate Management
                                                                 Period First Reported: April 1, 1994 to September 30,
GSA's Fine Arts Program                                          1994
Period First Reported: October 1, 1994 to March 31,              The review found that repair and alteration projects in
1995                                                             one region could be more comprehensively plarmed and
The review focused on GSA's oversight of fme art located         data bases more accurately maintained. The report
                                                                 contained ten recommendations; seven have been imple-
in Federal and non-federal institutions. The report
                                                                 mented.
contained fIve recommendations; none have been
implemented.                                                     One of the remaining recommendations, involving the
                                                                 validation of work items listed in the data base, is sched-
The recommendations involve reassessing the poliCies             uled for completion by September 15, 1996. The second
and practices for fine art in non-federal institutions; deter-   recommendation requires the identification of building
mining ownership status; developing policy for the               retention status and is scheduled for completion by
utilization of fine art in Federally controlled space and its    July 15, 1996. The third recommendation involves the
acceptance and disposal; improving access to the fine            validation of inspection data which is scheduled for
                                                                 completion by November 15, 1996.
arts data base; and providing long-tenn storage. They are
scheduled for completion by January 15, 1997.
                                                                 Maintenance Control Center Operations
Reimbursable Work Authorizations                                 Period First Reported: April 1, 1994 to September 30,
                                                                 1994
Period First Reported: October 1, 1994 to March 31,
                                                                 The review identified opportunities for improvement in
1995                                                             the processing of invoices and the management of main-
The review identified opportunities for improvement in           tenance and repair data. The report contained five
GSA's recovery of indirect costs related to the perfonnance      recommendations; none have been implemented.
of reimbursable work authorizations (RWAs). The report
contained two recommendations; neither have been imple-          The recommendations require the establishing of alter-
                                                                 native payment procedures, recording of necessary repair
mented.The recommendations involve the development
                                                                 and maintenance infonnation, transferring service infor-
of overhead rates to be applied to RWAs and charged to           mation from customer agencies, and streamlining
customer agencies. They are scheduled for completion by          operational structure. They are scheduled for completion
October 15, 1996.                                                by December 15, 1995.




                                                                                            Office of Inspector General 39
      Appendix 1- Significant Audits From Prior Reports

Administrative Support Services                                 have been completed except for a follow-up review which
                                                                is scheduled for completion by December 15, 1995.
Period First Reported: April 1, 1994 to September 30,
1994
                                                                Business Allocation
The review identified opportunities for improvement in
the administrative support services GSA provides to its         Period First Reported: October 1, 1993 to March 31 ,
program activities. All of the report's recommendations         1994
have been completed; however, audit closure awaits a            The review focused on GSA's administration of the
management follow-up review scheduled for completion            60 percent and 40 percent antiCipated business alloca-
by October 15, 1995.                                            tion between two FTS2000 contractors. The report
                                                                contained two recommendations; one has been imple-
Federal Protective Service                                      mented.

Period First Reported: October 1, 1993 to March 31,             The remaining recommendation involves GSA's determi-
1994                                                            nation of its future role in contractor revenue allocation
The review found that GSA needed to strengthen its              and indicating it in future proposals. Completion is sched-
control over firearms and improve internal security. The        uled by February 15, 1996.
report contained 14 recommendations; 13 have been
implemented.                                                    Procurement Personnel Development
The remaining recommendation involves an operational            Period First Reported: April 1, 1993 to September 30,
review and the development of a plan for the efficient oper-    1993
ation of the control centers. It is scheduled for completion    This review advised management to streamline and update
by December 15,1995.                                            its development programs for procurement personnel.
                                                                The report contained one recommendation; it has not yet
Inventory Management                                            been implemented.

Period First Reported: October 1, 1993 to March 31,             This recommendation requires improving the warrant-
1994                                                            mg, training, and certification programs. All actions related
The review identified opportunities for savings in the inven-   to the implementation have been completed except for a
tory management of stock in depots. All of the report's         follow-up review which is scheduled for completion by
recommendations have been completed; however, audit             February 15, 1996.
closure awaits a management follow-up review sched-
uled for completion by April 15, 1996.                          Local Telephone Service Program
                                                                Period First Reported: April 1, 1993 to September 30,
Distribution Centers                                            1993
Period First Reported: October 1, 1993 to March 31,             The review disclosed the need to provide better service to
1994                                                            Federal customers of the local telecommunications
The review identified opportunities for improvement in          program. The report included six recommendations; two
inventory management at a wholesale distribution                have been implemented. Two of the remaining recom-
center. The report contained 16 recommendations;                mendations require comparing costs with telephone
14 have been implemented.                                       services available from the private sector and identifying
                                                                customers who should be provided service from another
One of the remaining recommendations requires the               type of system. The other two recommendations involve
implementation of stock locator software, and is sched-         rate agreements and management of toll calls. An action
uled for completion by October 15, 1995. The other              plan outlining revised implementation dates for the
recommendation involves improvements in stock selec-            recommendations is scheduled for completion by
tion accuracy. All actions related to the implementation        March 15, 1996.



40 Semiannual Report To The Congress
      Appendix /- Significant Audits From Prior Reports

Employee Benefit Programs                                     Contract Workload Management
Period First Reported: October 1, 1992 to March 31,           Period First Reported: April 1, 1992 to September 30,
1993                                                          1992
This review found that the processing of health benefit
                                                              This review revealed the need to develop a strategy for
insurance transactions needed improvement. The report
contained two recommendations; one has been imple-            addressing procurement workload concerns. The report
mented.                                                       contained one recommendation; it has not yet been imple-
                                                              mented.
The remaining recommendation required a determina-
tion whether it would be cost beneficial to recover health    This recommendation involves establishing a working
benefit insurance contributions for prior years and to take
                                                              group to develop a system for addressing identified issues
appropriate action based on that determination. While
all pertinent actions have been taken on this recommen-       and to give attention to the Multiple Award Schedule
dation, it remains open until all recovery actions are        program concerns. It is scheduled for completion by
completed.                                                    October 15, 1995.




                                                                                        Office of Inspector General 41
                     Appendix //- Au t Report Regis r
                                                                                             Financial
                                                                                        Recommendations
                                                                                     Funds To      Questioned
Date of     Audit                                                                    Be Put To    (Unsupported)
Report      Number                              Title                                Better Use        Costs

            (Note: Due to the pre-decisional nature oj some audits, the
           financial recommendations pertaining to these reports are not
            listed in this Appendix.)

PBS         INTERNAL AUDITS
04/05/95    A43043      Audit of Overtime Practices: Federal Protective Service

04/24/95    A52489      Preaward Lease Audit: 911 Wilshire Boulevard, Los
                        Angeles, California, Pacific Rim Region, Lease Number
                        GS-09B-94842

04/26/95    A40943      Postaward Audit of Lease: Northeast Distribution Center,
                        Burlington, NJ, Mid-Atlantic Region, Lease Number
                        GS-03B-99023

05/15/95    A52470      Audit of Procurement Actions, Sansome Street Field
                        Office, Pacific Rim Region

05/18/95    A43023      Audit of Buildings Management Field Office, Southwest
                        Field Office, Washington, DC

06/15/95    A43310      Audit of the Lease Acquisition Process

06/21/95    A50937      Limited Scope Postaward Lease Audit: Naval Undersea
                        Warfare Center, Lease Number GS-03B-20068, Suffolk,
                        Virginia

06/26/95    A41836      Audit of Senator Levin's Concerns Regarding Operations
                        of the Detroit Field Office (Carpet Issue)

06/26/95    A51808     Audit of Senator Levin's Concerns Regarding Operations
                       of the Detroit Field Office (Contract Administration Issue)

06/26/95    A51824     Audit of Senator Levin's Concerns Regarding Operations
                       of the Detroit Field Office (Day Care Center, Blind
                       Vendor, and Basement Restroom Issues)

07/06/95   A51540      Audit of Postaward Lease Administration, U.S. Fish and
                       Wildlife Service, 555 Lester Street, Onalaska,
                       Wisconsin, Lease Number GS-05B-15839

07/06/95   A52479      Audit of Asbestos Issues in Building Repair and
                       Alteration Projects, Pacific Rim Region

07/19/95   A52130      Audit of Customer Service Center, Fort Worth, Texas




42 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                       ---   - -- --   -----   -----------------

                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                            Title                              Better Use        Costs

07/31/95   A53034     Audit of Security Service Contract Award to Areawide
                      Services Limited (John F. Kennedy Center for the
                      Performing Arts)

08/01/95   A51522     Review of the Proposed Transfer of Building 1, Defense
                      Finance and Accounting Service, Indianapolis
                      Accounting Center

08/03/95   A52485     Postaward Lease Audit: 1431 Harbor Bay Parkway,
                      Alameda, California, Pacific Rim Region

08/16/95   A52154     Preaward Lease Review: U.S. General Accounting Office,
                      Dallas, Texas, Lease Number GS-07B-14272

08/18/95   A43312     PBS' Process for Performing Reimbursable Space
                      Alterations Costing $25,000 or Less Needs to Be
                      Streamlined to Improve Timely Delivery of Services

08/22/95   A52472     Audit of the Pacific Rim Region's Use of Commercial
                      Facilities Management (CFM) Contracts

08/24/95   A52146     Audit of Region 7 Real Estate Holdover Leases and Lease
                      Escalation Accruals

09/12/95   A53025     Audit of Procurement Activities, Northwest Buildings
                      Management Field Office, Washington, D.C.

09/27/95   A41560     Review of Bidding and Contracting Practices on GSA's
                      Major Construction Projects

09/29/95   A51549     Audit of Postaward Lease Administration, Occupational
                      Safety and Health Administration, Cincinnati, Ohio,
                      Lease Number GS-05B-15404

PBS        CONTRACT AUDITS
04/04/95   A53632     Preaward Audit of Cost or Pricing Data: Pilot Research
                      Associates, Inc., Lease Number GS-l1B-30138

04/11/95   A53636     Preaward Audit of Architect and Engineering Services
                      Contract: Devrouax & Purnell, Subcontractor to the
                      Kling-Lindquist partnership, Inc., Solicitation Number
                      GS 11P94EGCOO 11

04/14/95   A52548     Preaward Audit of Architectural/Engineering Proposal:
                      Northwest Architectural Company, Solicitation Number
                      GS-lOP-94-LTC-0044


                                                                                Office of Inspector General 43
                      A endix //- Audit R ort Register
                                                                                             Financial
                                                                                        Recommendations
                                                                                     Funds To      Questioned
Date of     Audit                                                                    Be Put To    (Unsupported)
Report      Number                               Title                               Better Use        Costs

04/14/95    A52549      Preaward Audit of Architectural/Engineering Proposal:
                        Thomas Hacker and Associates, Solicitation Number
                        GS-1 OP-94-LTC-0044

04/21/95    A53630      Audit of Claim for Increased Cost: PLK Contractors, a
                        Subcontractor of the George Hyman Construction
                        Company. Contract Number GS-11P92MKC0062

04/21/95    A53635      Preaward Audit of Cost or Pricing Data: IDC Mechanical,
                        a Subcontractor of Donohoe Construction Company.
                        Contract Number GS-11B30 13B

04/27/95    A50637      Preaward Audit of Architect and Engineering Services
                        Contract: Shen Milsom & Wilke. Inc .. Solicitation
                        Number GS-11P-94-EGC-001l

04/28/95    A50633      Preaward Audit of Change Order Proposal: Mortenson
                        Company, Contract Number MSCAA-0085

04/28/95    A51229      Preaward Audit of Change Order Proposal: Dynalectric
                        Company, Contract Number MSCAA-0085

05/02/95    A53643      Preaward Audit of Architect and Engineering Services
                        Contract: Parsons Brinckerhoff Energy Services, Inc.,
                        Solicitation Number GSIIP95EGDOO15

05/03/95    A5364 1     Preaward Audit of Architect and Engineering Services
                        Contract: Schnabel Engineering Associates. Solicitation
                        Number GSIIP94EGC0011

05/05/95    A50923      Preaward Audit of Architect and Engineering Services
                        Contract: The Kling-Lindquist Partnership, Inc.,
                        Contract Number GSI 1P94EGCOOl 1

05/05/95    A51828      Preaward Audit of Cost or Pricing Data: Life Skills
                        Foundation. Inc., Contract Number GS06P92GXC0058

05/05/95    A53640      Preaward Audit of Architect and Engineering Services
                        Contract: Soil and Land Use Technology, Inc., Solicitation
                        Number GSIIP94EGD0024

05/10/95   A51536       Preaward Audit of Cost or Pricing Data: 3D /
                        International, Inc .. Partner in the Joint Venture, 3D/
                        International, Inc., and Turner Construction Company,
                        Proposed Contract Number GS05P94GBC0051




44 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                                  - - - -

                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

05/10/95   A53637     Preaward Audit of Architect and Engineering Services
                      Contract: RrKL Associates, Inc., Solicitation Number
                      GS IIP94EGCOO 11

05/12/95   A50335     Preaward Audit of Architect and Engineering Services
                      Contract: Oak Point Associates, Solicitation Number
                      GS-OIP-94-BZC-0021

05/17/95   A53642     Pre award Audit of Architect and Engineering Services
                      Contract: A. Morton Thomas and Associates, Inc.,
                      Solicitation Number GSIIP94EGCOOll

05/19/95   A52141     Preaward Audit of Cost or Pricing Proposal: Omega
                      Contractor, Inc., Solicitation Number GS-07P-95-
                      HUC-0026

OS/24/95   A53654     Preaward Audit of Architect and Engineering Services
                      Contract: Oudens + Knoop, Architects, P.C., Solicitation
                      Number GS-03P-94-0041

OS/26/95   A53655     Preaward Audit of Architect and Engineering Services
                      Contract: Robinson & Associates, Inc., a Subcontractor
                      to Oudens + Knoop, Architects, P.C., Solicitation
                      Number GS-03P-94-DXD-0041

05/30/95   A50641     Review of the Status of Claims Pending Before the
                      Contracting Officer for Final Decision: Terminal
                      Construction Corporation, Contract Number
                      GS-02P-23256

05/30/95   A50656     Review of Pretrial Stipulation on Accounting for Pass-
                      Thru Claims That Could Not Be Audited: Terminal
                      Construction Corporation, Contract Number GS-02P-
                      23256

06/02/95   A53646     Preaward Audit of Architect and Engineering Services
                      Contract: Geomet Technologies, Inc., Solicitation
                      Number GSIIP94EGD0020

06/08/95   A52518     Preaward Audit of Cost or Pricing Data: Krommenhoek,
                      McKeown & Associates, Solicitation Number GS-09P-
                      94-KfC-007 4

06/08/95   A52552     Preaward Audit of Architect and Engineering Services
                      Contract: Barton Myers Associates, Inc., Solicitation
                      Number GS-09P-94-KTC-0074



                                                                                 Office of Inspector General 45
                     Appendix II .... Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                     -------- - -   ----   ---- ---

                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

06/09/95   A51823      Preaward Audit of Change Order Proposal P-3: Morse
                       Diesel International, Inc., Contract Number GS06P-
                       94GYC0037

06/09/95    A51825     Preaward Audit of Change Order Proposal P-3: T.J.
                       Ahrens Excavating, Inc., Subcontractor to Morse Diesel
                       International, Inc., Contract Number GS06P94GYC0037

06/14/95   A51835       Preaward Audit of Cost or Pricing Data: Kansas City
                        Missouri Construction Services, Inc., Solicitation
                        Number GS06P95GYCOO 14(N)

06/16/95    A50659      Preaward Audit of Architect and Engineering Services
                        Contract: Haines Lundberg Waehler, Solicitation
                        Number GA11P95EGD0007

06/22/95    AOO102     Audit of Real Estate Tax Increases: Detroit & Canada
                       Tunnel Corporation, Lease Number GS-05B-12863 for
                       the Period February 1, 1980 Through January 31, 1989

06/22/95    A50927     Audit of a Claim: America's Drilling, Inc., Subcontractor
                       to SAE/Americon, Inc., Contract Number GS-03P-91-
                       CDC-0006

06/22/95    A90704      Preaward Audit of Lease Escalation Proposal: Detroit &
                        Canada Tunnel Corporation, Lease No. GS-05B-12863

06/23/95    A50639     Pre award Audit of a Claim: Falcon Associates, Inc.,
                       Contract Number GS-05P-91-GBC-0 108

06/29/95    A50640     Pre award Audit of Architect and Engineering
                       Construction Management Services Contract: Turner
                       Construction Company, Contract Number GS05P-
                       94GBC0051

06/29/95    A50655     Preaward Audit of Architect and Engineering Services
                       Contract: Lewis S. Goodfriend & Associates, Solicitation
                       Number GS11P95EGD0007

06/29/95   A52520      Preaward Audit of Change Order Proposal: Grimm
                       Construction Company, Inc., Subcontractor to
                       Gonzales Construction Company, Inc., Contract Number
                       GS-08P-93-JXC-0089




46 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                                  .-
                                                                                - - - - - - - - - - - --- ---- - -------------

                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                            Title                                Better Use         Costs

06/30/95   A52519     Pre award Audit of Change Order Proposal: Gonzales
                      Construction Company, Inc., Contract Number GS-08P-
                      93-JXC-0089

07/05/95   A53657     Preaward Audit of Change Order Proposal: C.J. Coakley
                      Co., Inc., Subcontractor to Grunley Construction
                      Company, Inc., Contract Number GS-llP92MKC-
                      0099"NEG"

07/07/95   A52507     Pre award Audit of Cost or Pricing Data: Hoffman
                      Construction Company, Contract Number GS-1 OP-94-
                      LTC-0041

07/13/95   A53662     Preaward Audit of Architect and Engineering Services
                      Contract: Professional Engineers Incorporated,
                      Solicitation No. GS05P93GBDOOO l-ZIL92270

07/20/95   A51554     Preaward Audit of Architect and Engineering Services
                      Contract: Wilson Kullman McCord, Inc .. Proposed
                      Contract Number GS-07P-JUC-0003

07/26/95   A50344     Preaward Audit of Architect and Engineering Services
                      Contract: R.G. Vanderweil Engineers, Inc., Solicitation
                      Number GS-11P-95-EGC-0005

07/26/95   A53639     Preaward Audit of Claim for Increased Costs: Stromberg
                      Metal Works, Inc., Contract Number GS-I1P92MKC0062

07/27/95   A53665     Preaward Audit of Architect and Engineering Services
                      Contract: Architrave P.C., Architects, Solicitation
                      Number GSI1P95EGD0006

07/28/95   A50658     Pre award Audit of Cost or Pricing Data: Turner
                      Construction Company, Other Direct Costs and
                      Consultants Costs, Contract Number GS-05P-94-GBC-
                      0051

07/28/95   A50664     Preaward Audit of Architect and Engineering Services
                      Contract: Smith, Hinchman & Grylls, Associates, Inc.,
                      Solicitation Number GS-I1P-95-EGC-0005(N)

07/31/95   A53647     Pre award Audit of Change Order Proposal: Retro
                      Environmental Inc., Subcontractor to Grunley
                      Construction Company, Inc., Contract Number
                      GS-11P92MKC0099 "NEG"




                                                                                    Office of Inspector General 47
                     Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   ----------.~~-      -- --------
                                                                                                    -- -   ------

                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

08/04/95   A53667      Preaward Audit of Architect and Engineering Services
                       Contract: Systech Group, Inc., a Subcontractor to Leo
                       A. Daly, Solicitation Number GS11P95EGD0007

08/08/95    A52493     Pre award Audit of Lease Escalation Proposal:
                       University of Southern California, Contract Number GS-
                       09B-70160

08/09/95   A50644      Postaward Audit of Fixed Price Incentive Contract:                             $1,920,249
                       Linpro New York Realty, Inc., Contract Number
                       GS02P91 CUC0058

08/lO/95    A53666     Preaward Audit of Architect and Engineering Services
                       Contract: Gorove/Slade Associates,         Inc., a
                       Subcontractor to Leo A. Daly, Solicitation Number
                       GS11P95EGD0007

08/11/95   A50657      Preaward Audit of a Claim: Morgan & Thornburg, Inc.,
                       Subcontractor to Mortenson Company, Contract
                       Number MSCAA-0085

08/11/95    A53669     Report on Application of Agreed-Upon Procedures for
                       Review of Architect and Engineering Services Contract:
                       Leo A. Daly Company, Solicitation Number GS11-
                       P95EGD0007

08/16/95    A53656     Preaward Audit of Architect and Engineering Services
                       Contract: Summer Consultants, Inc., a Consultant to
                       Oudens + Knoop, Architects, P.C., Solicitation Number
                       GS-03P-94-DXD-0041

08/18/95    A50665     Postaward Audit of Fixed Price Incentive Contract:                                  $814,736
                       Tishman Foley Partners: Subcontracting Costs,
                       Contract Number GS-02P-91-CUC-0058

08/21/95   A50646      Postaward Audit of Fixed Price Incentive Contract: Lehrer                           $238,380
                       McGovern Bovis, Inc., Contract Number GS-02P-91-
                       CUC-0057

08/23/95   A525 10     Pre award Audit of a Claim: Grimm Construction
                       Company, Inc., Subcontractor to Gonzales
                       Construction Company, Inc., Contract Number GS-08P-
                       93-JXC-0089




48 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations-, -
                                                                                 -- -- - - - - -   -- --------   -------------------~




                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                            Title                              Better Use        Costs

08/29/95   A51241     Preaward Audit of Architect and Engineering Services
                      Contract: Lockwood Greene Engineers, Inc., Solicitation
                      Number GS-04P-95-EXD-00 12

08/29/95   A52509     Audit of Claim for Increased Costs: Gonzales
                      Construction Company, Inc., Contract Number GS-08P-
                      93-JXC-0089

08/31/95   A50647     Postaward Audit of Fixed Price Incentive Contract:                                                $1,264,147
                      Structure Tone, Inc., Subcontractor to BPT Properties
                      Foley Square, L.P., Contract Number GS-02P-91-CUC-
                      0057

09/06/95   A53670     Preaward Audit of Architect and Engineering Services
                      Contract: Ross Murphy Finkelstein, Inc., a
                      Subcontractor to Leo A. Daly, Solicitation Number
                      GSIIP95EGD0007

09/07/95   A51243     Preaward Audit of Construction Management Services
                      Contract: Heery International, Incorporated, Contract
                      Number GS-04P-95-EXD-0022

09/11/95   A52514     Preaward Audit of Architect and Engineering Services
                      Contract: EDAW, Incorporated, Subcontractor to Leo A.
                      Daly, Solicitation Number GS-lIP-95-EGD-0007

09/12/95   A53659     Audit of Claim for Increased Cost: Twigg Corporation,
                      Contract Number GS IlP92MKC0041

09/12/95   A53668     Preaward Audit of Change Order Proposal to Contract
                      Number GS02P93CUC0071 for the Historical Research
                      of the Mrican Burial Ground Project, Howard
                      University

09/13/95   A50352     Preaward Audit of Architect and Engineering Services
                      Contract: KRI Management Inc., Solicitation Number
                      GS-O IP-94-BZD-0027

09/18/95   A53650     Audit of Claim for Increased Cost: Greenbrier
                      Architectural Woodwork, a Subcontractor of The George
                      Hyman Construction Company, Contract Number
                      GS-IIP92MKC0062

09/19/95   A53660     Pre award Audit of Cost or Pricing Data: Superior
                      Management Services, Inc., Solicitation Number
                      GS IlP94MKC0090



                                                                                Office of Inspector General 49
                      Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                              Title                             Better Use        Costs

09/19/95   A53677       Preaward Audit of Architect and Engineering Services
                        Contract: Dewberry & Davis, Solicitation Number
                        GSIIP95EGD0014

09/20/95    A5367 1     Pre award Audit of Cost or Pricing Data: Trinity
                        Elevator Corporation, Solicitation Number GSIIP95-
                        MJC0026

09/22/95    A50662      Postaward Audit of Fixed Price Incentive Contract: BPT                 $1,005,188
                        Properties Foley Square, L.P., Contract Number GS-02P-
                        91-CUC-0057

09/26/95    A51850      Pre award Audit of Cost or Pricing Data: World Wide
                        Terminal Services, Inc., Solicitation Number GS06P95-
                        GXC0062

09/27/95    A50660      Preaward Audit of Change Order Proposal: Morgan and
                        Thornburg, Inc., Subcontractor to Mortenson
                        Company, Contract Number MSCAA-0085

09/29/95    A52492      Audit of Termination Settlement Proposal: Foremost
                        Mechanical Systems, Inc., Contract Number GS-07P-
                        91-JXC-0101

FSS         INTERNAL AUDITS
04/13/95    A52713      Advisory Report on Award of Task Orders to Arthur
                        Andersen LLP Under the QMI Services MAS Contract for
                        the Analyses of GSA's Business Lines

04/26/95    A53020      Audit of Sato, Inc., Travel Management Center-Peace
                        Corps

04/27/95   A42420       Audit of the Productivity Gain Sharing Program at the
                        Western Distribution Center, Pacific Rim Region

05/16/95   A42152       Audit of the Southwestern Distribution Center's
                        Hazardous Material Program

05/19/95   A52717       Advisory Report on Award of Task Orders to Arthur
                        Andersen LLP Under the QMI Services MAS Contract for
                        the Analyses of GSA's Business Lines

07/11/95   A52550       Audit of Inventory of Sensitive Items, Western
                        Distribution Center. Stockton, California, Pacific Rim
                        Region



50 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                      Financial
                                                                                 Recommendations
                                                                              Funds To      Questioned
Date of    Audit                                                              Be Put To    (Unsupported)
Report     Number                             Title                           Better Use        Costs

07/19/95   A52126     Audit of the Implementation of Revised Quality
                      Assurance Procedures, Region 7

07/25/95   A50634     Audit of Controls Over Vendor Performance, Region 2
                      Office Supplies and Paper Products Commodity Center

07/26/95   A43022     Audit of the Furniture Rehabilitation Program

08/14/95   A51814     Audit of Funding Conversion, GSA's Household Goods
                      Program

08/15/95   A43040     Audit of the Use of First Class Travel

08/23/95   A52142     Audit of Fort Worth Fleet Management Center and
                      Maintenance Control Center Operations

08/25/95   A41818     Audit of the Federal Supply Service's Motor Freight
                      Program

09/20/95   A52138     Audit of the Federal Personal Property Donation                           $1,300
                      Program, State of New Mexico

09/28/95   A52488     Audit of GSA's Oversight of Travel Management Centers

09/29/95   A51221     Review of Internal Controls Over Cash Receipts from
                      GSA's Personal Property Sales Program

FSS        CONTRACT AUDITS
04/04/95   A52128     Limited Scope Postaward Audit of Multiple Award                          $35,314
                      Schedule Contract: Southwest Decor, Inc., Contract
                      Number GS-OOF-4925A

04/04/95   A52132     Limited Scope Postaward Audit of Multiple Award                           $1,100
                      Schedule Contract: Southwest Decor, Inc., Contract
                      Number GS-OOF-4924A

04/06/95   A50333     Preaward Audit of Multiple Award Schedule Contract:
                      Amicon, Inc., Solicitation Number FCGS-Z3-94-
                      0041-B-N

04/07/95   A51533     Preaward Audit of Multiple Award Schedule Contract:
                      Hill-Rom Company, Inc., Solicitation Number 3FNH-94-
                      FW01-N




                                                                              Office ofInspector General 51
                    Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                                   -----
                                                                                              ------       -- ---

                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

04/12/95   A50332      Preaward Audit of Multiple Award Schedule Contract:
                       Coming Costar Corporation, Solicitation Number FCGS-
                       Z3-94-0041

04/12/95   A50921      Preaward Audit of Multiple Award Schedule Contract:
                       Datacard Corporation, Solicitation Number FCGE-94-
                       C1-0l47B-N

04/12/95   A50926       Preaward Audit of Cost or Pricing Data: Stanley-Vidmar,
                        Inc., Solicitation Number 3FNH-94-F502··N

04/13/95   A51829       Preaward Audit of Multiple Award Schedule Contract:
                       Ozark Equipment Company, Inc., Solicitation Number
                        7FXI -K7 -94-3704-B

04/14/95   A52430      Preaward Audit of Multiple Award Schedule Contract:
                       Friden Neopost, Solicitation Number FCGE-94-C 1-
                       0147B-N

04/17/95   A42559       Postaward Audit of Multiple Award Schedule Contract:                           $73,050
                        RGB Spectrum, Contract Number GS-03F-2032A

04/17/95   A50625      Preaward Audit of Multiple Award Schedule Contract:
                       Dun & Bradstreet, Corporation, Solicitation Number
                       2FYG-LG-940002-B

04/17/95   A50638      Preaward Audit of Multiple Award Schedule Contract:
                       Serta Mattress Company, Solicitation Number 3FNH-
                       94-1<"W0 1-N

04/19/95   A51535      Preaward Audit of Multiple Award Schedule Contract:
                       Joerns Healthcare, Inc., Solicitation Number 3FNH-94-
                       FWOI-N

04/20/95   A51826      Preaward Audit of Multiple Award Schedule Contract:
                       Excel Industries, Inc., Solicitation Number 7FXI -K7 -94-
                       3704-B

04/21/95   A50619      Preaward Audit of Multiple Award Schedule Contract:
                       Duralab Equipment Corporation, Solicitation Number
                       FCGE-94-C9-0 144-N

04/26/95   A52429      Preaward Audit of Multiple Award Schedule Contract:
                       Shachihata, Inc., Solicitation Number 2FYS-AP-94-000lB




52 Semiannual Report To The Congress
                    Appendix //- Audit                       port Regis r
                                                                                     Financial
                                                                                Recommendations
                                                                             Funds To      Questioned
Date of    Audit                                                             Be Put To    (Unsupported)
Report     Number                           Title                            Better Use        Costs

04/27/95   A41571     Postaward Audit of Multiple Award Schedule Contract:                   $268,524
                      Scotsman, Contract Number GS07F16772 for the
                      Period October 1, 1989 Through September 30, 1992

04/27/95   A52432     Preaward Audit of Multiple Award Schedule Contract:
                      1RW Information Systems Group, Information Services
                      Division, Solicitation Number FCXS-FC-940005-N-l 1-
                      30-94

04/28/95   A40939     Postaward Audit of Multiple Award Schedule Contract:                   $462,506
                      Gilian Instrument Corp., Contract Number GScOOF-
                      2350A for the Period February 1, 1990 Through
                      January 31, 1994

05/01/95   A50645     Limited Scope Postaward Audit of Multiple Award                          $3,908
                      Schedule Contract: Serta Mattress Company, Contract
                      Number GS-00F-5739A

05/02/95   A50636     Preaward Audit of Multiple Award Schedule Contract:
                      Logimetrics, Inc., Solicitation Number FCGS-Y5-95-
                      0042-B-N

05/03/95   A31543     Postaward Audit of Multiple Award Schedule Contract:                   $952,777
                      Herman Miller, Inc., Contract Number GS-00F-0705F
                      for the Period December 1, 1990 Through November 30,
                      1993

05/03/95   A50329     Preaward Audit of Multiple Award Schedule Contract:
                      Pitney Bowes, Inc., Solicitation Number FCGE-94-Cl-
                      o147-B-N
05/03/95   A51537     Preaward Audit of Multiple Award Schedule Contract:
                      Simplicity Manufacturing, Incorporated, Solicitation
                      Number7FXI-K7-94-3704-B

05/07/95   A40316     Postaward Audit of Multiple Award Schedule Contract:                 $2,040,907
                      Konica Business Machines U.S.A., Inc., Contract
                      Number GS-00F-4430A, for the Period November 27,
                      1990 to September 30, 1993

05/09/95   A51820     Postaward Audit of Multiple Award Schedule Contract:                   $496,533
                      Miles, Inc., Diagnostics Division, Contract Number
                      GS00F2572A for the Period October 1, 1990 Through
                      September 30, 1994




                                                                             Office of Inspector General 53
                     Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

05/09/95   A52129      Postaward Audit of Multiple Award Schedule Contract:
                       Telecom Electric Supply Company, Contract Number
                       GS-07F-5138A for the Interim Period March 25, 1992
                       Through December 31, 1994

05/10/95   A50635      Preaward Audit of Multiple Award Schedule Contract:
                       Lumex, Solicitation Number 3FNH-94-FWO 1-N

05/11/95   A 10080     Postaward Audit of Multiple Award Schedule Contract:                    $3,536,675
                       American Seating Company, Contract Number GS-OOF-
                       76575 for the Period July 1, 1985 Through
                       September 30, 1988

05/11/95   A50932      Preaward Audit of Multiple Award Schedule Contract:
                       Ellenco, Incorporated, Solicitation Number 7FXI-R7-94-
                       6302-B

05/11/95   A52135      Price Adjustments on MAS Contract: Frymaster
                       Corporation, Contract Number GS-07F -6490A for the
                       Interim Period June 1, 1995 Through September 30,
                       1996

05/12/95   A51538      Preaward Audit of Cost or Pricing Data: Century
                       Equipment, Inc., Distributor for the Toro Company,
                       Solicitation Number 7FXI -K7 -94-3704-B

05/16/95   A52124      Price Adjustments on MAS Contract: Coulter
                       Corporation, Contract Number GS-OOF -5928A for the
                       Interim Period June 1, 1995 Through May 31, 1996

05/17/95   A53649      Preaward Audit of Multiple Award Schedule Contract:
                       Pressure Systems, Inc., Solicitation Number FCGS-Y5-
                       95-0042-B-N

05/18/95   A41568      Limited Scope Audit of Government Billings: SRA                            $36,943
                       Technology Training, Contract Number GS-02F-5651A

OS/24/95   A50934      Preaward Audit of Multiple Award Schedule Contract:
                       Protective Security, Inc., Solicitation Number 7FXI-R7-
                       94-6302-8

05/30/95   A42118      Postaward Audit of Multiple Award Schedule Contract:                       $64,982
                       Sencore, Inc., Contract Number GS-00F-2526A

05/30/95   A42148      Postaward Audit of Multiple Award Schedule Contract:                       $24,415
                       Sencore, Inc., Contract Number GS-00F-5957A



54 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                ___
                                                                                    Recommendations
                                                                                      _ _ _ _ _ _ _ _ _ _ " __ U_   _   ___________________ _




                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

05/31/95   A51232     Preaward Audit of Multiple Award Schedule Contract:
                      Scientific Atlanta, Incorporated, Solicitation Number
                      FCGS-Y5-95-0042-B-N

05/31/95   A51834     Preaward Audit of Multiple Award Schedule Contract:
                      Deere and Company, Solicitation Number FCAP-S5-
                      950038-B-N

05/31/95   A51837     Postaward Audit of Multiple Award Schedule Contract:
                      Biomereux Vitek, Inc., Contract Number GS-OOF-4761A
                      for the Interim Period June 1, 1991 Through April 30,
                      1995

05/31/95   A52423     Preaward Audit of Multiple Award Schedule Contract:
                      Peter Pepper Products, Inc., Solicitation Number 3FNO-
                      95-J306-N-5-2-95

05/31/95   A52444     Preaward Audit of Multiple Award Schedule Contract:
                      Tektronix, Inc., Solicitation No. FCGS-Y5-95-0042-B-N

06/02/95   A52468     Preaward Audit of Multiple Award Schedule Contract:
                      Hewlett-Packard Company, Solicitation Number FCGS-
                      Y5-95-0042-B-N

06/08/95   A52457     Preaward Audit of Multiple Award Schedule Contract:
                      Contract Decor, Incorporated, Solicitation Number GS-
                      03F-95-AYC-0002

06/15/95   A41820     Postaward Audit of Multiple Award Schedule Contract:                                                $318,579
                      Sunshine Makers, Inc., Contract Number GS-10F-7204A
                      for the Period August 1, 1990 Through June 30, 1993

06/15/95   A42162     Limited Scope Postaward Audit of Cost or Pricing Data:
                      Monaco Enterprises, Inc., Contract Number GS-07F-
                      3275A

06/15/95   A50930     Postaward Audit of Multiple Award Schedule Contract:
                      Betz Entec, Inc., Contract Number GS-1 OF-7580A for
                      the Interim Period February 1, 1992 Through
                      December 31, 1994

06/15/95   A52463     Preaward Audit of Cost or Pricing Data: Datatape, Inc.,
                      Solicitation Number GS-03F-94-AYC-0041




                                                                                  Office of Inspector General 55
                    Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                               ____M _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _   .~




                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                             Title                             Better Use        Costs

06/16/95   A52420       Preaward Audit of Multiple Award Schedule Contract:
                        Anritsu Wiltron Company, Solicitation Number FCGS-
                        Y5-95-0042-B-N

06/16/95   A52437       Preaward Audit of Multiple Award Schedule Contract:
                        Watson Furniture Systems, Solicitation No. 3FNO-95-
                        J306-N-3-2-95

06/21/95   A50924       Preaward Audit of Multiple Award Schedule Contract:
                        Neurological Research & Development Group,
                        Solicitation Number 3FNH -94-FWO 1-N

06/23/95   A53658       Preaward Audit of Multiple Award Schedule Contract:
                        Stihl, Incorporated, Solicitation Number 7FXI-K7-94-
                        3704-B

06/28/95   A42128       Postaward Audit of Multiple Award Schedule Contract:                                                       $149,726
                        Polychrome Corporation, Contract Number GS-OOF-
                        01331

06/29/95   AlO140       Postaward Audit of Multiple Award Schedule Contract:                                                        $236,442
                        Schwab Corp., Contract No. GS-OOF-84171

06/29/95   AlO141       Postaward Audit of Multiple Award Schedule Contract:                                                       $232,924
                        Schwab Corp., Contract No. GS-OOF-07129

06/30/95   A50653      Preaward Audit of Multiple Award Schedule Contract:
                       Library Bureau, Inc., Solicitation Number 3FNO-95-
                       J306-N-3-2-95

06/30/95   A52451       Preaward Audit of Multiple Award Schedule Contract:
                        Desco ManufactUring Company, Inc., Solicitation
                        Number FCAP-S5-950038-B-N

06/30/95   A53648      Preaward Audit of Multiple Award Schedule Contract:
                       Interior Elements, Inc., Solicitation Number 3FNH-94-
                       FWOI-N

07/06/95   A51547      Preaward Audit of Multiple Award Schedule Contract:
                       Case Corporation, Solicitation Number FCAP-S5-950038-
                       B-N

07/07/95   A52434      Preaward Audit of Multiple Award Schedule Contract:
                       Radionics, Incorporated, Solicitation Number 7FXI-R7-
                       94-6302-B




56 Semiannual Report To The Congress
                    Appendix //- Audit Report R ister
                                                                                       Financial
                                                                                  Recommendations
                                                                                   ------------------------   ---   -

                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                            Title                             Better Use        Costs

07/11/95   A50339     Preaward Audit of Multiple Award Schedule Contract:
                      Vaisala, Inc" Solicitation Number FCGR-95-0002-B

07/11/95   A51541     Preaward Audit of Multiple Award Schedule Contract:
                      CCH Incorporated, Solicitation Number 2FYG-LG-
                      940002-B

07/11/95   A52145     Preaward Audit of Multiple Award Schedule Contract:
                      Melroe Company, Solicitation Number FCAP-S5-
                      950038-B-N

07/17/95   A51840     Preaward Audit of Multiple Award Schedule Contract:
                      Alexander Manufacturing Company, Solicitation
                      Number 7FXI-B7-95-6108-B

07/18/95   A51838     Preaward Audit of Multiple Award Schedule Contract:
                      Tennant Company, Solicitation Number FCAP-S5-
                      950038-B-N

07/19/95   A51543     Interim Period Postaward Audit of Multiple Award
                      Schedule Contract: The Marvel Group, Inc., Contract
                      Number GS-OOF -5033A for the Period April 1, 1991
                      Through February 28, 1995

07/20/95   A52424     Preaward Audit of Multiple Award Schedule Contract:
                      Handar, Solicitation Number FCGR-95-0002-B

07/20/95   A52425     Pre award Audit of Cost or Pricing Data: Handar,
                      Solicitation Number FCGR-95-0002-B

07/24/95 A51237       Preaward Audit of Multiple Award Schedule Contract:
                      Skyland Equipment Co., Inc., Solicitation Number FCAP-
                      S5-950038-B-N

07/25/95   A50338     Price Adjustments on Multiple Award Schedule
                      Contract: The Brewster Corporation, Contract Number
                      GS-00F-5297A for the Interim Period May 1, 1995
                      Through April 30, 1996

07/25/95   A52152     Umited Scope Interim Postaward Audit of Multiple Award
                      Schedule Contract: Twenty First Century International
                      Fire Equipment, Contract Number GS-07F-3964A

07/27/95   A51548     Preaward Audit of Multiple Award Schedule Contract:
                      Caterpillar, Inc., Solicitation Number FCAP-S5-9500-
                      38-B-N



                                                                               Office of Inspector General 57
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations-
                                                                                       - -- --- - ----- -- -------------      --------

                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

07/28/95   A50649      Preaward Audit of Multiple Award Schedule Contract:
                       Graphic Controls Corporation, Solicitation Number 2FYP-
                       DO-950003B

08/07/95   A52551      Preaward Audit of Cost or Pricing Data: Burlington
                       Environmental, Contract Number GS-09F-80340

08/08/95   A51239      Preaward Audit of Multiple Award Schedule Contract:
                       Kut-Kwick Corporation, Solicitation Number 7FXI-K7-
                       94-3704-B

08/09/95   A52452      Preaward Audit of Multiple Award Schedule Contract:
                       RD Instruments, Solicitation Number FCGR-95-
                       0002B-N

08/10/95   A50336      Postaward Audit of Multiple Award Schedule Contract:                                                $66,167
                       Amicon, Inc., Contract Number GS-00F-2376A for the
                       Period May 1, 19901hroughApril30, 1995

08/10/95   A53661      Preaward Audit of Multiple Award Schedule Contract:
                       ADT Security Systems, Mid-South, Inc., Solicitation
                       Number 7FXI-R7-94-6302-B

08/11/95   A52156      Urnited Scope Interim Postaward Audit of Multiple Award
                       Schedule Contract: Texas Lamp Manufacturers, Inc.,
                       Contract Number GS-27F-2067B

08/11/95   A52439      Preaward Audit of Multiple Award Schedule Contract:
                       Coastal Climate Company dba Coastal Environmental
                       Systems, Solicitation Number FCGR-95-0002-B

08/14/95   A51842      Preaward Audit of Multiple Award Schedule Contract:
                       Kohler Company, Solicitation Number 7FXI-B7-95-
                       6108-B

08/16/95   A50942      Preaward Audit of Multiple Award Schedule Contract:
                       Spectra-Physics Laserplane, Inc .. Solicitation Number
                       FCGR-95-0002-B

08/21/95   A51839      Preaward Audit of Multiple Award Schedule Contract:
                       SC Johnson Professional, Solicitation Number TFTC-
                       95-MM -794BB

08/28/95   A52153      Interim Period Postaward Audit of Multiple Award                                                     $3,650
                       Schedule Contract: Current Technology, Inc., Contract
                       Number GS-07F-5061A



58 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               - ---------------------- -   -   - ---------   ---   ---- --- - -   ----

                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                            Title                             Better Use        Costs

08/30/95   A51841     Preaward Audit of Multiple Award Schedule Contract:
                      Kreonite, Inc., Solicitation Number FCGE-95-B8-
                      0150-N

09/05/95   A51557     Preaward Audit of Multiple Award Schedule Contract:
                      Da-Lite Screen Company, Incorporated, Solicitation
                      Number FCGR-95-B8-0l50-N

09/13/95   A50943     Preaward Audit of Multiple Award Schedule Contract:
                      Identicard Systems, Inc., Solicitation Number FCGE-
                      9S-B8-01S0-N

09/14/95   A52426     Preaward Audit of Multiple Award Schedule Contract:
                      Ashtech, Inc., Solicitation Number FCGR-95-0002-B

09/19/95   A51559     Preaward Audit of Multiple Award Schedule Contract:
                      AM Multigraphics, Solicitation Number FCGR-94-
                      0031-B

09/20/95   A50654     Preaward Audit of Multiple Award Schedule Contract:
                      Gaylord Bros., Solicitation Number 3FNO-95-J306-N

09/22/95   A50945     Preaward Audit of Multiple Award Schedule Contract:
                      Xerox Corporation, (Printing Systems), Contract No.
                      GSOOK94AGS5816 - PS02, Option Year Number 2

09/25/95   A50672     Preaward Audit of Multiple Award Schedule Contract:
                      Nikon, Inc., Solicitation Number FCGE-95-B8-0 150-N

09/25/95   A52456     Preaward Audit of Multiple Award Schedule Contract:
                      Noritsu America Corporation, Solicitation Number FCGE-
                      9S-B8-OlS0-N

09/26/95   A50948     Preaward Audit of Multiple Award Schedule Contract:
                      E.!. Dupont DeNemours and Company, Inc.,
                      Solicitation Number FCGE-9S-B8-1050-N

09/28/95   A52427     Preaward Audit of Multiple Award Schedule Contract:
                      Miller Dial Corporation, Solicitation Number FCGE-95-
                      B8-OlS0-N

09/28/95   A52428     Limited Audit of Government Billings: Miller Dial                                                                $889
                      Corporation, Contract Number GS-00F-4502A




                                                                                 Office of Inspector General 59
                                                       t Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                -------         - -----

                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                             Title                             Better Use        Costs

09/29/95   A51560      Preaward Audit of Multiple Award Schedule Contract:
                       AB. Dick Company, Solicitation Number FCGR-94-
                       0031B-N

ITS         INTERNAL AUDITS
05/12/95   A43703      Audit of MAS Pilot Project

ITS         CONTRACT AUDITS
04/05/95   A90618      Postaward Audit of Multiple Award Schedule Contract:                     $460,682
                       Interleaf, Inc., Contract No. GSOOK86AGS5714 Renewals
                       1 and 2 for the Period November 26, 1985 Through
                       September 30, 1988

04/13/95   A42572       Preaward Audit of Multiple Award Schedule Contract:
                        Candle Corporation, Solicitation Number KF~O-94-000 1
                        (4-19)

05/04/95   A42115       Postaward Audit of Multiple Award Schedule Contract:                   . $350,383
                        QMS, Inc., Contract Number GSOOK91AGS5879

05/09/95   A42145      Postaward Audit of Multiple Award Schedule Contract:
                       AT&T Global Business Communications Systems
                       Business Unit, Contract Number GSOOK92AGS0452

05/12/95   A50330      Postaward Audit of Multiple Award Schedule Contract:                        $86,849
                       Digital Equipment Corporation, Contract Number
                       GSOOK92AGS5512 for the Period November 1, 1991 to
                       September 30. 1992

06/16/95   A52553      Preaward Audit of Multiple Award Schedule Contract:
                       Intermec Corporation, Solicitation Number GSC-KES-
                       00050-N-O 1-27-94

06/23/95   A52147      Limited Scope Postaward Audit of Multiple Award                               $2,688
                       Schedule Contract: Altai Software, Contract Number GS-
                       00K-92-AGS-5506

07/18/95   A00891      Postaward Audit of Multiple Award Schedule Contract:                     $273.132
                       Memorex Corporation. Contract Number GS-00K-88-
                       AGS-0211

07/21/95   A50343      Preaward Audit of Multiple Award Schedule Contract:
                       Gensym Corporation, Solicitation Number KESO-95-
                       0002



60 Semiannual Report To The Congress
                    Appendix II .... Audit Report Register
                                                                                        Financial
                                                                                    Recommendations
                                                                                --Funds To-----guestioned
Date of    Audit                                                                 Be Put To   (Unsupported)
Report     Number                               Title                            Better Use      Costs

08/15/95   A52555     PreawardAudit of Cost or Pricing Data: Tag-Dataflow/
                      Alaska, Joint Venture, Solicitation Number 9KC-EC-94-
                      0002

08/18/95   A52148     Preaward Audit of Multiple Award Schedule Contract:
                      BMC Software, Inc., Solicitation Number KESO-95-0002
                      (5-10)

08/21/95   A53651     Preaward Audit of Cost or Pricing Data: Bell Atlantic,
                      Washington, D.C., Incorporated, Contract Number
                      GSOOK89ADHOO 11

09/15/95   A42138     Postaward Audit of Cost or Pricing Data: WilTel                            $130,342
                      Communications Systems, Inc., Contract Number
                      GSOOK93AGS0536

09/18/95   A53678     Preaward Audit of Cost or Pricing Data: Computer Data
                      Systems, Inc., Contract No. GSOOK-92-AJC-0017

09/22/95   A50342     Preaward Audit of Multiple Award Schedule Contract:
                      Data General Corporation, Solicitation Number KESO-
                      95-0002

09/26/95   A50351     Preaward Audit of Multiple Award Schedule Contract:
                      Digital EqUipment Corporation, Solicitation Number
                      KESO-95-0002

FTS        INTERNAL AUDITS
04/28/95   A53019     Audit of Sprint Charges

OTHER      INTERNAL AUDITS
04/26/95   A42443     Audit of Controls Over Accounting Control Transaction
                      Numbers, Pacific Rim Region

06/19/95   A50331     Audit of Employee Parking Benefits, New England Region,
                      Boston, MA

06/30/95   A53663     Report on GSA's Non-Compliance With Section 10 of the
                      General Provisions of Public Law 100-440

07/31/95   A51836     Audit of Operations of the General Programs Section of
                      the Heartland Region's Accounts Payable Branch




                                                                                 Office of Inspector General 61
                    A      endix 1/- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                -----   ------------
                                                                                        -----"   --------

                                                                                Funds To          Questioned
Date of    Audit                                                                Be Put To      (Unsupported)
Report     Number                             Title                             Better Use           Costs

08/09/95   A52136       Audit of the Application of the Rate Development
                        System

08/09/95   A52476       Audit of Criminal History Background Checks for Child
                        Care Employees

08/22/95   A52115       Audit of Controls Over Processing Disbursement Orders
                        for Treasury




62 Semiannual Report To The Congress
                          Appendix 111- Delinquent Debts

GSA's Office of the Chief Financial Officer provided the       simplifY reporting requirements and reconciliation but
following infonnation:                                         also improve the monitoring of both Federal and non-
                                                               federal accounts.
GSA Efforts to Improve Debt Collection                       • Continued to participate in the IRS Tax Refund Offset
                                                               Program. Submissions to the IRS under this program
During the period April 1, 1995 through September 30,
                                                               in the last 6 months have increased ten-fold over the
1995, GSA efforts to improve debt collection and reduce
                                                               last year. GSA also participates in and chairs the Fed-
the amount of debt written off as uncollectible focused
                                                               eral Debt/Credit Forum which is a clearinghouse for
on upgrading the collection function and enhancing debt
                                                               ideas on how to collect non-federal debts.
management. These activities included the following:
                                                             • Initiated a program to encourage debtors wishing to
• Brought the Billed Accounts Receivable Tracking Sys-         make monthly payments to use pre-authorized
  tem enhancements on line in GSA's Finance Office in          debits. Once the debtor signs on, monthly payments
  Fort Worth, Texas. Among other things, this data base        are automatically taken from the debtor's bank account.
  generates letters to GSA's delinquent customers con-         Late payments and follow-up on missed payments are
  cerning expenses related to Infonnation Technology           totally eliminated.
  SeIVice and reimbursable work authorization billings.      • Began using the Accounts Receivable Collection System
  This is a significant improvement over the previous          (ARCS) for all claim types in GSA's Finance Office in
  system and simplifies the required reconciliation            Kansas City, Missouri. ARCS has improved delinquency
  process. The Fort Worth office is also developing a data     follow-up time to 30 days for all claim types. Thanks
  base to generate letters to GSA's delinquent customers       to ARCS and timely follow-up, GSA has collected
  for other billings and claims. This will not only            $10.3 million in Fiscal Year 1995.




Non-Federal Accounts Receivable

                                                      As of                 As of
                                                  April 1, 1995       September 30. 1995         Difference

 Total Amounts Due GSA                             $45,002,433            $49,622,366           $ 4,619,933
 Amount Delinquent                                 $23,769,614            $20,889,860           $(2,879,754)

 Total Amount Written
 Off as Uncollectible
 Between 4/1/95 and
 9/30/95                                           $    958,747



Of the total amounts due GSA and the amounts                 1995, approximately $602,000 and $862,000
delinquent as of April 1, 1995 and September 30,             respectively, are being disputed.




                                                                                       Office of Inspector General 63
                     Appendix IV -- Reporting Requirements

The table below cross-references the reporting                                     Congress in Senate Report No. 96-829 relative to the
requirements prescribed by the Inspector General Act                               1980 Supplemental Appropriations and Rescission Bill
of 1978, as amended, to the specific pages where they                              is also cross-referenced to the appropriate page of the
are addressed. The information requested by the                                    report.



                                                       Requirement                                                                                 Page
 Inspector General Act
      Section 4(a)(2)-Review of Legislation and Regulations ......................................................................... 27

      Section 5(a)(1)-Significant Problems, Abuses, and Deficiencies ......................................................... 2,9

      Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
        and Deficiencies ............................................................................................................................. 2,9

      Section 5(a)(3)-Prior Recommendations Not Yet Implemented ............................................................ 39

      Section 5(a)(4)-Matters Referred to Prosecutive Authorities ................................................................ 35

      Sections 5(a)(5) and 6(b)(2)-Summary ofInstances Where Information Was Refused ..................... None

      Section 5(a)(6)-List of Audit Reports ................................................................................................... .42

      Section 5(a)(7)-5ummary of Each Particularly Significant Report ............................................. , ........ 2,9

      Section 5(a)(8)-5tatistical Tables on Management Decisions on Questioned Costs ............................. 34

      Section 5(a)(9)-5tatistical Tables on Management Decisions on Recommendations
        That Funds Be Put to Better Use .................................................................................................... 33

      Section 5(a)( 10)-5ummary of Each Audit Report Over 6 Months Old for Which No
        Management Decision Has Been Made ....................................................................................... None

      Section 5(a)(11)-Description and Explanation for Any Significant Revised
        Management Decision ................................................................................................................ None

      Section 5(a)(12)-Information on Any Significant Management DeciSions With Which
        the Inspector General Disagrees ................................................................................................. None

 Senate Report No. 96-829
       Resolution of Audits ............................................................................................................................ 32

       Delinquent Debts ................................................................................................................................ 63




64 Semiannual Report To The Congress
                        ~
Federal Recycling Program ~, Printed on Recycled Paper
